<html>
<title> - FUTURE PLANS FOR THE DEPARTMENT OF ENERGY'S NUCLEAR WEAPONS COMPLEX INFRASTRUCTURE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-58]
 
  FUTURE PLANS FOR THE DEPARTMENT OF ENERGY'S NUCLEAR WEAPONS COMPLEX 
                             INFRASTRUCTURE

                               __________

                                HEARING

                               BEFORE THE

                     STRATEGIC FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 5, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  

                    U.S. GOVERNMENT PRINTING OFFICE
28-991                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     STRATEGIC FORCES SUBCOMMITTEE

                    TERRY EVERETT, Alabama, Chairman
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
TRENT FRANKS, Arizona                JOHN SPRATT, South Carolina
MICHAEL TURNER, Ohio                 LORETTA SANCHEZ, California
MIKE ROGERS, Alabama                 ELLEN O. TAUSCHER, California
JOE SCHWARZ, Michigan                RICK LARSEN, Washington
CATHY McMORRIS, Washington           JIM COOPER, Tennessee
GEOFF DAVIS, Kentucky
               Bill Ostendorff, Professional Staff Member
                Bob DeGrasse, Professional Staff Member
                    Katherine Croft, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Wednesday, April 5, 2006.........................................     1

Appendix:

Wednesday, April 5, 2006.........................................    31
                              ----------                              

                        WEDNESDAY, APRIL 5, 2006
  FUTURE PLANS FOR THE DEPARTMENT OF ENERGY'S NUCLEAR WEAPONS COMPLEX 
                             INFRASTRUCTURE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Everett, Hon. Terry, a Representative from Alabama, Chairman, 
  Strategic Forces Subcommittee..................................     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Strategic Forces Subcommittee..........................     2

                               WITNESSES

Anderson, Charles E., Principal Deputy Assistant Secretary for 
  the Office of Environmental Management.........................    21
D'Agostino, Thomas P., Deputy Administrator for Defense Programs, 
  National Nuclear Security Administration.......................    18
Overskei, Dr. David O., Chairman of the Nuclear Weapons Complex 
  Infrastructure Task Force of the Secretary of Energy Advisory 
  Board..........................................................     4
Stockton, Peter D.H., Senior Investigator, Project on Government 
  Oversight (POGO)...............................................     9

                                APPENDIX

Prepared Statements:

    Anderson, Charles E..........................................    86
    D'Agostino, Thomas P.........................................    73
    Everett, Hon. Terry..........................................    35
    Overskei, Dr. David O........................................    49
    Reyes, Hon. Silvestre........................................    40
    Stockton, Peter D.H..........................................    61
    Tauscher, Hon. Ellen O., a Representative from California....    46

Documents Submitted for the Record:

    POGOs Report on U.S. Nuclear Weapons Complex: Homeland 
      Security Opportunities dated May 2005 [This report is 
      retained in the Committee files and can be viewed upon 
      request.]
    Project on Government Oversight (POGO) Internal E-mails 
      submitted by Peter D.H. Stockton...........................    95
    Report of the Nuclear Weapons Complex Infrastructure Task 
      Force, Recommendations for the Nuclear Weapons Complex of 
      the Future dated July 13, 2005, Final Report [This report 
      is retained in the Committee files and can be viewed upon 
      request.]
    Sandia Report, Change and the Nuclear Weapons Complex, Key 
      Studies and Outcomes in the Final Decades of the 20th 
      Century (U) [This report is retained in the Committee files 
      and can be viewed upon request.]

Questions and Answers Submitted for the Record:

    Mr. Everett..................................................   103
    Mr. Skelton..................................................   107
    Ms. Tauscher.................................................   108


  FUTURE PLANS FOR THE DEPARTMENT OF ENERGY'S NUCLEAR WEAPONS COMPLEX 
                             INFRASTRUCTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                          Washington, DC, Wednesday, April 5, 2006.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2237, Rayburn House Office Building, Hon. Terry Everett 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. TERRY EVERETT, A REPRESENTATIVE FROM 
        ALABAMA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Everett. The hearing will come to order.
    The Strategic Forces Subcommittee meets today to receive 
testimony on plans for transforming the Department of Energy's 
nuclear weapons complex.
    Thank you all for coming.
    I would like to welcome our first panel of witnesses: Dr. 
David Overskei, Chairman of the Nuclear Weapons Complex 
Infrastructure Task Force; and Mr. Peter Stockton, Senior 
Investigator, Project on Government Oversight (POGO); Mr. Tom 
D'Agostino, Deputy Administrator for Defense Programs at the 
National Nuclear Security Administration (NNSA); and Mr. 
Charles Anderson, Principal Deputy Assistant Secretary in the 
Office of Environmental Management (EM) in the Department of 
Energy (DOE).
    The subject of how to transform the nuclear weapons complex 
is not new, nor is it easy. There have been many studies 
conducted over the last 20 years on how best to modernize our 
Cold War era weapons complex. In spite of the numerous studies, 
there has been little change and almost no actual 
transformation. We cannot continue to proceed down the same 
path year after year. Doing so will put at risk a key attribute 
of our national defense: our strategic nuclear deterrent.
    In last year's defense authorization bill, this 
subcommittee drafted and enacted, with bipartisan support, 
legislation setting forth the objectives of the Reliable 
Replacement Warhead or RRW program. That legislation was 
accepted by our Senate colleagues and is now established law. 
At the time, we saw the RRW program as laying down a foundation 
for the required capabilities of the future weapons complex 
infrastructure.
    Today, with the RRW program concept in place, we will hear 
from our witnesses on what steps could or should be taken to 
modernize our complex, consolidate nuclear material and reduce 
security costs. There are many different opinions on how best 
to accomplish transformation. Along with my subcommittee 
colleagues, I look forward to hearing from our witnesses today 
on this critically important issue.
    We have a lot of ground to cover today, and I want to allow 
each of our Members as much opportunity as possible to ask 
questions. I would ask our witnesses to please be brief with 
their prepared remarks. The entirety of your written testimony 
will be included in the record.
    Let me also say if you see me up here wiping the tears, it 
has nothing to do with your testimony. It is the fact that my 
allergies have gone crazy.
    Let me now introduce my good friend and colleague, Mr. 
Reyes, the Ranking Member of our subcommittee. Mr. Reyes.
    [The prepared statement of Mr. Everett can be found in the 
Appendix on page 35.]

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Reyes. Thank you, Mr. Chairman.
    If you have forgotten how hard we work, when it brings the 
chairman to tears, you know we are working hard.
    Thank you, Mr. Chairman, and I join you in welcoming our 
witnesses to this very important hearing.
    I want to thank each of our distinguished witnesses for 
taking time from their busy schedules to be with us today.
    I also want to thank my friend, our chairman, Mr. Everett, 
for providing me with the opportunity to set the stage for the 
hearing today from my own personal perspective.
    Nuclear weapons and our nuclear weapons complex play a very 
different role in our national security posture than they did 
during the Cold War. Almost 15 years have passed since the 
collapse of the old Soviet Union and almost 14 years since the 
last nuclear weapons test on September 23, 1992. Much has 
changed since that time.
    The legacy of our nuclear weapons competition with the 
former Soviet Union lives on in the weapons, facilities and 
materials that remain, however.
    While Russia and the United States agreed in the Moscow 
Treaty of 2002 to limit deployed nuclear warheads to a level of 
1,700 to 2,200 each by the end of 2012, the United States 
maintains a significant stockpile of old weapons in reserve. 
DOE's life extension programs for deployed weapons have not 
convinced the Department of Defense to part with these 
reserves. The stockpile of old weapons is retained based on 
concerns that we might find a fatal defect in one or more of 
our deployed systems and that we cannot rapidly produce new 
systems.
    And while the two nations agreed in June of 2000 to dispose 
of at least 34 metric tons of plutonium each beginning next 
year in 2007, this program has been stalled for years over the 
issue of liability and may face additional hurdles, according 
to the recent briefings by the administration.
    Finally, even in this post-9/11 era, when stocks of nuclear 
weapons and materials represent particularly attractive 
targets, weapons-grade nuclear materials remain in storage at 
facilities such as Hanford, Washington, that no longer perform 
any nuclear weapons-related activity.
    In terms about the safety, security and reliability and the 
cost of the nuclear weapons enterprise have been of continuing 
interest for this particular subcommittee. The hearing today 
allows us to explore the administration's plans for maintaining 
our nuclear deterrent without returning to testing and for 
securing nuclear materials within our own borders without 
further busting our budget.
    In January of 2005, the Secretary of Energy established a 
task force to ``gather data, define options and develop 
recommendations that, if implemented, will create a smaller, 
modern, complex infrastructure that is responsive to post-Cold 
War mission requirements.'' Dr. Overskei chaired that task 
force, and he is here today to discuss that task force's final 
report, which was transmitted to the Secretary last October. 
The task force delivered a bold report that made numerous 
recommendations, but its key proposals focused on revitalizing 
the nation's nuclear weapons conflicts through, one, pursuing 
development of reliable replacement warheads and, two, 
consolidating all production and storage involving weapons-
grade nuclear materials in one underground location.
    The NNSA administrator, Ambassador Brooks, assigned Deputy 
Administrator Tom D'Agostino responsibility for evaluating the 
task force's recommendations and preparing NNSA's plans for 
creating a responsive nuclear weapons infrastructure. Mr. 
D'Agostino will describe those plans for us this afternoon.
    The Department of Energy stores weapons-grade nuclear 
materials at 13 sites around our nation, some of which have no 
current relationship with nuclear weapons business. After the 
9/11 attack, the agency reevaluated its security posture. The 
department concluded that significant improvements should be 
made based primarily on the risk of a terrorist being able to 
fabricate an improvised nuclear device by gaining access to 
some of these materials.
    The new security posture requires expensive upgrades, yet 
DOE's current security costs are already substantial. The 
fiscal year 2007 request for nuclear security activities, 
including both NNSA and the Environmental Management Program, 
exceeds $1 billion.
    The project on government oversight, POGO, conducted an 
investigation in 2005 evaluating the department's plans for 
protecting weapons-grade material. They found that disposing of 
excess nuclear materials and consolidating the remaining 
materials in fewer and more easily defendable locations, could 
save our government billions of dollars over three years while 
also better protecting the public from potential nuclear 
terrorism. Mr. Stockton is here today to discuss POGO's 
recommendation.
    While the department's efforts to consolidate nuclear 
materials are intimately related to improving security and 
reducing costs, it is notable that consolidation plans have 
been slow in developing. It was not until this past November 
that the Secretary appointed Charles Anderson the chair of the 
Department of Nuclear Materials Disposition Consolidation 
Coordination Committee. Mr. Anderson is here this afternoon to 
discuss with this subcommittee the department's plans for 
moving forward with disposition and consolidation efforts.
    So we have a busy afternoon, Mr. Chairman.
    Thank you, again, for the opportunity to offer these 
observations, and I look forward to hearing from our witnesses. 
With that, I yield back my time, sir.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 40.]
    Mr. Everett. And I thank my friend.
    We will start with the first panel, of course.
    Dr. Overskei, the floor is yours.

  STATEMENT OF DR. DAVID O. OVERSKEI, CHAIRMAN OF THE NUCLEAR 
 WEAPONS COMPLEX INFRASTRUCTURE TASK FORCE OF THE SECRETARY OF 
                     ENERGY ADVISORY BOARD

    Dr. Overskei. Thank you.
    Chairman Everett, Representative Reyes and Members of the 
committee, thank you very much for inviting me to appear before 
you today to discuss the work of our task force on the Nuclear 
Weapons Complex Infrastructure Task Study.
    I understand that my written testimony will be accepted for 
the record.
    Mr. Everett. Without objection.
    Dr. Overskei. Thank you.
    I will just spend a few seconds giving you some context 
about our study and how we went about doing it.
    As you have already been informed, this came up as the 
Secretary of Energy made a commitment to Energy and Water 
Appropriations Subcommittee in March 2004. This was 
memorialized in legislation in the Energy and Water 
Appropriations Bill of 2005.
    The Secretary requested the Secretary of Energy Advisory 
Board (SEAB) to set up this task force, and we were set up in 
January of 2005. We commenced our work in February and 
submitted our report for public comment in July. It was 
submitted to the Secretary of Energy Advisory Board in October 
of 2005 and then accepted by them and submitted to the 
Secretary of Energy.
    It is important to understand that we wanted to understand 
the landscape and all the constraints and the diversity of 
requirements that was being placed on the nuclear weapons 
complex. And we began our efforts by talking to senior members 
of the National Security Council, the Office of the Secretary 
of Defense, the Nuclear Weapons Council, the executive officers 
in both the Air Force and the Navy who are responsible for the 
delivery systems for nuclear weapons in those respective 
services, the Office of Management and Budget, the Commander of 
U.S. Strategic Command, Members of Congress that are 
responsible for the oversight committees that authorize and 
appropriate funds for the Department of Energy in both the 
Congress and the Senate, and also the National Nuclear Security 
Administration personnel.
    Then we also reviewed the context in which the President 
established new conditions with regards to a directive for a 
reconstitution and a new level for the stockpile, and the new 
weapons level of 2010 of 1,700 and 2,000 weapons--and 2,200 
nuclear weapons. And that defined a reduced capacity 
requirement for the complex.
    In addition, the Department of Defense had undergone a new 
evaluation of how they were going to represent deterrence for 
the United States and defenses for national security purposes, 
and they had a new triad. And this established near-term 
mission objectives and performance metrics for the Department 
of Energy and the nuclear weapons complex as an element of this 
triad.
    So with that as background, we began our study, and just to 
make sure that we know that we are cognizant of the fact, 
numerous other reports and studies had been conducted since 
1980, and we had requested that the Department of Energy give 
to us a presentation of the major recommendations of the 
previous studies, of which there were 12 major ones. We 
requested the recommendation and the outcome of those studies 
and a perspective as to why those recommendations were not 
implemented so that we had that as a context. And, ladies and 
gentlemen, this was a very sobering experience. We found that 
the recommendations were very substantive and extensive and it 
gave us great pause as to whether or not our committee was 
going to have the ability to actually implement change.
    With that, we began our review of the complex, and we noted 
that the complex is currently struggling to transition from the 
old Cold War approach, with the Cold War weapons, into a new 
and more agile complex. We did not find that the complex was 
integrated, and it wasn't operating as a unified enterprise. It 
was a set of independent design laboratories who were operating 
independently of the production facilities and the production 
sites. And all were striving to sustain their past legacy and 
their past funding rather than preparing for a different 
future.
    The DOD, who is the primary customer, did not consider the 
complex productive or responsive, and the stakeholders that we 
interviewed did not find the complex as being responsive in the 
context of the new triad that was coming out of the Department 
of Defense.
    From a capability perspective, enormous investments in 
stockpile stewardship we found were starting to bear fruit. We 
now have superior characterization of the weapons materials and 
understanding of the nuclear physics processes. However, the 
design laboratories have not produced a new design in over 15 
years and the design laboratories were struggling to resolve 
some current stockpile issues in a timely fashion.
    The production complex was largely old, operating World War 
II era or early 1950's facilities and did not employ modern 
production quality control or production processes and 
techniques. And the production part of the complex was 
routinely failing to meet the current weapon refurbishment 
requirements and schedules that were set by the Department of 
Defense.
    From a security perspective, the plutonium and highly-
enriched uranium special nuclear materials that were located at 
six to eight complex sites were rapidly draining the budget of 
operating funds via security requirements, and this was rapidly 
approaching the level of about a billion dollars a year. And 
this was largely because of what we would consider to be 
arbitrary mandated requirements and methodologies to meet the 
design basis threat (DBT) that was established by the 
Administration and the Department of Energy.
    There was also some other aspects associated with the 
geographical constraints and the physical site constraints of 
these facilities, which I will address later, but they were 
never designed to provide the sort of security requirements 
that we were seeking of our complex sites today.
    From a management perspective, the nuclear weapons complex 
that during the 1980's demonstrated great leadership and 
decisive decision-making was no longer doing that. The DOD was 
not operating as a partner. The DOE management was burdening 
the NNSA with rules and regulations that were inconsistent with 
mission requirements of the NNSA. And the complex, as I have 
already said, was not operating as an integrated enterprise 
with a shared purpose.
    The Cold War stockpile, although it be safe and reliable, 
does not represent now the surety controls and use controls, 
nor the operating margins the DOD requires and the complex is 
capable of producing. And this stockpile is being sustained 
through a very expensive life extension program which will 
still result in old weapons, albeit with some modern 
components, and many of these weapons will be, by 2030, will be 
of a 50- or 60-year-old design. This stockpile is a legacy that 
has a future maintenance and surveillance cost liability that 
we believe is unbounded.
    Now, we have a vision for the complex of the future. And it 
would be for a sustained role of nuclear weapons, an important 
part of our current and future deterrence posture. We would 
envision a complex that would evolve to a smaller stockpile, 
consistent with the President's level that he put in the Moscow 
Treaty for 2012 of 1,700 to 2,200 deployed weapons with some 
modest reserve. In our analysis, we assumed there would be a 
reserve of about 1,000 weapons.
    We assume comparable ratios between Intercontinental 
Ballistic Missiles (ICBM) and Submarine-Launched Ballistic 
Missiles (SLBM) and air-delivered warheads, as we have today, 
but only for the purposes of analysis, and we assume in 
discussions with the Air Force, Navy and Strategic Command, 
that the complex would need to be in a position to produce 
annually up to 125 weapons for the stockpile as a demonstration 
of productivity, which is important in the capability aspect of 
deterrence.
    Our vision for the complex is that it would provide these 
weapons, through continuous design, production and 
dismantlement, and that this continuity of demonstration of 
capability is an essential element of deterrence, and it is 
this type of deterrence that will result in a reliable 
stockpile. But more than that, it is this deterrence capability 
that is in the complex that will allow us to meet uncertainty 
and threats to the future. It is not the stockpile. It is the 
complex that can address this.
    With that, I want to point out several attributes that we 
would associate and would aspire that would be in the complex 
of the future.
    The first is agility. This is agility in the scientific 
engineering and technical capital base of the complex that we 
think is fundamentally the most important. It is that area that 
will innovate, conceive and develop feasible solutions that 
then can get produced.
    The automated production aspect of the complex would be 
employing concurrent engineering, which is something that is 
used now by state-of-the-art manufacturing facilities and 
market segments throughout the world, and this automated 
concurrent engineering production complex would be in a 
position to rapidly transition from prototype to production.
    And responsiveness. We have metrics that are submitted in 
the written report of 12 months to fix the problem, 18 months 
to develop a solution for new needs, 36 months to a prototype, 
48 months to production and 18 months to resume testing. While 
we believe that these numbers are very technically credible and 
can be achieved within the complex, we believe that there is a 
credible approach where these numbers could be halved.
    One of the other requirements here is that in order to 
achieve all of this it will require a management and leadership 
organization that is capable of making timely decisions that 
balance risks, benefits, performance and cost. We feel that 
such a complex is possible and desirable, and that such a 
complex can replace and dismantle the entire Cold War weapons 
stockpile and replace it with the comparable amount of 2,200 or 
less sustainable nuclear weapons of equivalent military 
characteristics, and this can be done by 2030.
    Now, I wanted to discuss a couple of recommendations that 
we believe are important to get started immediately to realize 
this vision.
    The first is the immediate design of a reliable replacement 
warhead, and we are pleased to see that the Administration is 
doing that and that the DOD is endorsing it. It is important to 
identify that this is not a weapon as much as this is a new 
process that gets applied to designing weapons. It is a process 
where you look for advanced surety and use control, higher 
margins, utilization of commercial components wherever possible 
to eliminate the unique production capabilities and you design 
for cost and reliability over a lifecycle. And that there would 
be successive versions of an RRW so that over time, in a 
controlled manner, you can replace the stockpile. And, second, 
because we would submit that you would go through planned 
lifecycles of about five years per version, this allows you 
then to accommodate and incorporate new technology to meet 
evolving threats, and you can incorporate that into your 
stockpile solution.
    The second element is the CNPC, the Consolidated Nuclear 
Production Center. And this is where you would consolidate all 
nuclear explosive package, production, assembly and disassembly 
activities in one location. It will be cutting-edge production 
and manufacturing capability. And it would be designed to 
produce 125 weapons to the stockpile every year and dismantle 
125 weapons, so that we are in a steady state.
    This site--and this is an important element--this site 
should not be selected competitively. There are a number of 
locations in the United States where this site could be placed. 
It should be selected by the President with advice based on 
national security needs from the Secretary of Energy and the 
Secretary of Defense and in consultation with the Congress. 
This is a issue of national security. This should not be an 
issue of jobs.
    The third element of our proposal is the consolidation of 
special nuclear materials (SNM). This will be the only way that 
we can address the continuously escalating security cost of the 
complex and reduce exposure of the current and the future 
terrorist threat to the complex.
    This consolidation would be done at the CNPC and we believe 
that one of the most effective approaches--but there are other 
ways of doing this--but one of the most effective approaches 
would be to have the CNPC underground, because that is one of 
the most sure ways of capping the potential security threat. We 
also point out that this consolidation of all of the SNM 
materials cannot and will not likely be realized until the Cold 
War stockpile is dismantled.
    Dismantlement is another element. This is important to 
demonstrate to the world that we are not entering into new arms 
building. We would point out that we believe Pantex is well 
positioned to aggressively dismantle the existing Cold War 
stockpile and the same with Y-12. And at the conclusion of the 
dismantlement of the last of the Cold War weapons, then Pantex 
and Y-12 could be remediated and all of the SNM materials and 
components could be relocated to the CNPC or at other DOE 
complex locations for remediation and disposition.
    Office of Transformations is the last of our 
recommendations. This office is responsible to guide the 
transformation of the department in areas of leadership, 
establishing interdependence and teamwork, like establishing 
contracting incentives and linking deliverables across the 
complex. It would also be responsible for rationalizing 
operating decisions and management options and, last, this 
would be an organization that would provide some insight into 
the leadership and management of the NNSA. We would like to 
point out that this is not--this management aspect is not an 
issue of architecture or organization. It is rather an issue of 
leadership and empowerment.
    The consequences of our recommendations are this: We 
believe that you can achieve a safe, reliable stockpile of 
1,700 to 2,200 nuclear weapons by 2012 and convert that to the 
new sustainable stockpile by 2030. The complex will evolve into 
an organization that is far more agile and responsive and will 
constitute one of the critical elements of the new triad.
    We looked at the cost analysis of doing it. Our analysis 
was by no means complete, nor was it as detailed as we would 
like, but we did find that with little or no budget increase 
and excepting reduced diversity in the stockpile, reduced 
redundancy in the complex, reducing employment within the 
complex and taking on some future risks, you can make the 
transition.
    On the other hand, with budget increases in the next 10 
years, largely for the dismantlement and the construction of 
the CNPC, you can achieve the transition with no compromise in 
the current stockpile, no compromise or reduction in the 
employment at the current sites, and no or very little future 
risk. And, of course, there is a large continuum between these 
two options.
    Furthermore, we would submit that the status quo is not an 
option and it is not technically credible nor financially 
sustainable.
    So I submit that this Administration can implement the 
transformation of the complex if the Congress agrees to support 
this. We have found, going back to my initial comments, where 
we had looked at these 12 previous studies, we have found that 
the things that we are proposing are not dramatically different 
from steps that have been proposed in the past, but one of the 
elements that was missing was congressional legislation to 
support a lot of those recommendations. And we would submit 
that at this point, to achieve these transforming actions, it 
is going to require congressional legislative support for the 
Administration to actually implement.
    In closing, I would say, we have the money and the ability 
to establish a modern nuclear deterrent complex and it only 
requires the support of Congress and the Administration and the 
decision to do so.
    This concludes my testimony.
    There was a request for me to address a specific question 
associated with the cost of the CNPC and alternative approaches 
to the CNPC, which at this point I am capable and willing to 
do, but I will defer that to questions.
    [The prepared statement of Dr. Overskei can be found in the 
Appendix on page 49.]
    Mr. Everett. Thank you, Dr. Overskei.
    I think we will proceed with Mr. Stockton and then come 
back.

STATEMENT OF PETER D.H. STOCKTON, SENIOR INVESTIGATOR, PROJECT 
                    ON GOVERNMENT OVERSIGHT

    Mr. Stockton. Chairman Everett and Mr. Reyes, thank you for 
inviting POGO to your hearing on future plans for the nuclear 
weapons complex.
    The Project on Government Oversight is an independent 
organization that investigates and exposes corruption and other 
misconduct in order to achieve a more accountable Federal 
Government.
    We think the Secretary of Energy's Advisory Board report, 
headed by Dr. David Overskei, was very thoughtful, looking at 
the nuclear weapons complex over the next 25 years. However, 
POGO's approach is focused on the near term because of the 
enormous amount of money that will be spent protecting the 
nuclear material where there is either a redundant mission or 
no mission at all.
    In consultation with security experts throughout the 
Federal Government, POGO conducted an investigation to 
determine how nuclear weapons sites could best meet the new 
security requirements, the DBT, while also lessening the 
enormous financial burden of trying to protect the materials at 
13 separate sites.
    This investigation has found that disposing of excess 
nuclear materials and consolidating remaining materials in 
fewer and more easily-defended locations could save the 
government billions of dollars over the next three years while 
also better protecting the public from nuclear terrorism. In 
this post-9/11 world, it is unconscionable that we continue to 
store plutonium and highly-enriched uranium, the nuclear 
material most attractive to terrorists, in World War II era 
buildings, some of which are built of wood.
    This material is stored at great cost to the taxpayer, and 
some of the sites are in highly populated areas. It is 
incumbent upon the Department of Energy and the Congress to 
force change, as uncomfortable as that process could be. I 
think you have maps attached to our testimony there of what the 
complex looks like now and what we recommend.
    There are 13 sites across the country that store large 
quantities of weapons-grade special nuclear material. The 
responsibility for these sites is divided between the DOE's 
NNSA and Environment, Science and Engineering (ESE), and the 
Nuclear Regulatory Commission.
    POGO's 2005 report recommended ways in which DOE should de-
inventory six sites of SNM and consolidate these materials at 
more secure sites in the next three years. In addition, POGO 
encouraged accelerating the process of blending-down of excess 
highly-enriched uranium (HEU) and immobilizing excess 
plutonium.
    We were in no way suggesting shutting down sites. We are 
simply stating that these six sites pose unnecessary homeland 
security risks and budgetary pressures by continuing to store 
SNM.
    In discussions with NNSA, we have learned that they now 
have a plan that will significantly consolidate their SNM. They 
should be congratulated for taking this step. The problem 
remains however, that they are looking too far into the future 
to accomplish this plan; at least two administrations into the 
future. In the meantime, we are spending billions of dollars to 
protect this material.
    The proposed timelines for consolidation are so far into 
the future that they are easy to accept because the hard work 
is left for future administrations and other policy makers. 
Secretary Bodman needs to inject immediacy into this plan to 
make it successful.
    We know from experience that officials throughout the 
nuclear weapons complex have and will strongly resist any 
change. Those inside the complex have seen that they can just 
out-wait any new directives until the current Secretary has 
moved on, and the status quo can be maintained. And I am sorry 
I don't have enough time to explain the
    That happened to Secretary Richardson as well as Secretary 
Abraham and Deputy Secretary Kyle McSlarrow. The major reason 
for the TA-18 move, which I spend half my life on it seems.
    An array of concerns arises when it comes to securing 
America's nuclear material, but security experts' greatest fear 
is very distinct: the terrorist group successfully reaches its 
target at one of the facilities and within an extraordinarily 
short time, within minutes, uses the HEU to create an 
improvised nuclear device (IND). It only takes a critical mass 
of HEU of about 100 pounds or potentially less to create an 
IND.
    To put this in perspective, one site alone stores about 400 
metric tons of HEU, enough for 14,000 nuclear warheads. NNSA is 
now struggling to resolve the growing tension that exists 
between budget constraints and security requirements as long as 
the material remain spread across the complex. It appears ESE 
does not even recognize the problem.
    POGO has internal emails that indicate that they are 
engaged in what I can only call the mating dance of the prairie 
chick about what to report to your committee. I would like to 
submit them for the record. I have a copy of them right here.
    [The information referred to can be found in the Appendix 
on page 95.]
    Mr. Everett. Without objection.
    Mr. Stockton. Thank you.
    DOE sites cannot meet the 2003 DBT, which is far less 
robust than most of the recent--several DOE sites, I am sorry. 
Several DOE sites cannot meet the 2003 DBT, which is far less 
robust than the most recent DBT.
    The Office of Management and Budget cut the fiscal year 
2007 DOE security budget by $200 million, mostly because they 
were disappointed in the lack of progress in DOE's 
consolidation efforts. Ambassador Linton Brooks writes that he 
can't reveal the cut in security funding because he has to 
defend the President's budget. DOE's Office of Security and 
Safety Performance Assurance Director Glen Podonsky pointed out 
that the way out of this morass is to consolidate the SNM and 
reduce the security cost.
    Some sites, as you probably know, are preparing to request 
waivers from the Secretary to exempt them from the 2003 DBT. 
One site at Y-12 has already been granted waiver. Hanford and 
Oak Ridge National Laboratory are in the process of receiving 
waivers.
    I ask that our complete report be submitted for the record. 
I will focus my testimony on the most urgent priorities for the 
committee to consider.
    [The information referred to is retained in the Committee 
files and can be viewed upon request.]
    Mr. Stockton. The first is sites that should be de-
inventoried immediately. Lawrence Livermore National 
Laboratory. When it was built, it was located in the middle of 
a desert. Since that time, a residential neighborhood has 
encroached to the fence line of the lab, with houses and 
athletic fields literally across the street. Nearly 7 million 
people reside within a 50-mile radius of the lab. Super Block, 
where the plutonium and highly-enriched uranium is located, is 
only approximately 900 yards from these houses.
    Securing these materials creates a unique problem. How do 
you adequately protect these materials without unduly 
endangering the surrounding population? The security forces at 
Livermore are constrained in a way that no other NNSA security 
forces are. It is precisely because of these residential 
neighborhoods that the Livermore security force cannot use the 
same weapons used by security forces at the other sites.
    Despite earlier assurances from DOE that these restrictions 
on Livermore's defensive measures pose no problems, DOE has 
reversed course and decided that the restrictions are indeed a 
problem.
    DOE has lifted those restrictions to a degree and is now 
planning to deploy Gatling Guns that fire 30,000 rounds a 
minute. The military kill range for such a gun is one mile, but 
it can kill up to two miles. Within that one-mile range, there 
are two elementary schools, a preschool, middle school, senior 
center and athletic fields. Even in an accidental firing, the 
lab would be spraying lethal bullets into the neighborhoods.
    Mr. Everett. Mr. Stockton, you are doing so good, I really 
hate to do this. But if you will put a checkmark where you are, 
we have about seven minutes to get over to the floor to vote. 
We have a 15-minute vote, a 5-minute vote and another 15-minute 
vote, which we don't have to stay for all of it. I am 
anticipating that we will have probably a 20- to 25-minute 
recess. And I apologize again, but these kinds of things are 
out of our control.
    The hearing is recessed.
    [Recess.]
    Mr. Thornberry [presiding]. If the hearing will come back 
to order, the chairman will return momentarily. But he has 
asked us to go ahead and start. He will be here in just a 
moment.
    Mr. Stockton, if you could conclude your testimony, please, 
sir, and then we will go to questions.
    Mr. Stockton. Currently the only mission for SNM at 
Livermore is for studying the aging of plutonium and studying 
cracked plutonium pits for nuclear warheads. This same work is 
conducted at Los Alamos.
    DOE has finally acknowledged that Livermore should be de-
inventoried of its category I and II SNM. The lab could retain 
category III and IV quantities for their experiments, as those 
quantities would be of no use to terrorists.
    However, DOE doesn't propose to accomplish this very 
important step until 2014. It is important to point out that 
the plan is to wait to move the materials until Chemistry and 
Metallurgy Research Replacement (CMRR) is built at Los Alamos, 
a total of at least eight years. And then all of Los Alamos' 
and Livermore's material is scheduled to move again by 2025 to 
the Nevada test site. Why build a new building at Los Alamos if 
only a decade later it is expected to be de-inventoried?
    We have, and I think it is attached to the testimony you 
have, a picture of what is going on around Livermore and the 
encroaching neighborhood.
    POGO's recommendation: If it is determined by NNSA that it 
wants to continue the redundant mission at Livermore, the 
material could be moved to the device assembly facility at the 
Nevada Test Site. The Livermore glove boxes and any necessary 
equipment could be shipped to the Device Assembly Facility 
(DAF). The scientists could easily take the one-hour flight to 
the DAF as they did for years during the nuclear test program 
when they need to conduct experiments with larger quantities of 
SNM.
    I will go quickly through Oak Ridge National Laboratory 
(ORNL). The decision about what to do with 1,000 cans of U-233 
at Oak Ridge National Laboratory has been difficult to make 
because the material at ORNL is utterly orphaned. ESE says NNSA 
owns the material, so they don't have to pay to deal with it. 
NNSA says it does not own it and it is ESE's problem. This 
stovepiping is a real problem within DOE. We understand that 
DOE's ESE is trying to get exempted from the 2003 DBT.
    There is also similarly orphaned special nuclear material 
at Hanford that neither ESE or NNSA are taking responsibility 
for. If these special nuclear materials were removed from these 
two sites, both Oak Ridge and Hanford would gain by 
significantly reducing security needs as well as massive 
financial costs that go along with them.
    On onsite consolidation, Highly-Enriched Uranium Materials 
Facility (HEUMF) at Y-12, DOE is currently constructing an 
aboveground building, known as HEUMF, to store the plant's 
hundreds of tons of HEU. DOE inspector general has criticized 
both the design and the cost of this new building, including 
that it will cost more and be less secure than the original 
plan for a bermed facility.
    In 2004, Sandia National Laboratory was asked by NNSA to 
evaluate HEUMF plans. It was ultimately Sandia's approval of 
this design that persuaded DOE headquarters to give the green 
light for the aboveground building. POGO has learned, however, 
that the Sandia study never compared HEUMF design with an 
underground or bermed design, explaining in small print that 
they did not want to have to consider an entire redesign for 
the building.
    Ironically, it was an earlier Sandia study that had 
recommended using existing designs from two other government-
owned underground facilities to solve the Y-12 storage problem, 
the DAF and Kirkland Underground Munitions Storage Complex 
(KUMSC) at Kirtland Air Force Base, which is totally 
underground.
    There is an opportunity, however, to take advantage of the 
current debacle in the HEUMF construction. As you know, 
construction was halted about a month and a half ago on HEUMF 
at Y-12 because the amount of rebar in the concrete does not 
meet specifications. There is now talk of starting from 
scratch.
    POGO recommendation: We suggest that you take this 
opportunity to stop throwing good money after bad, dramatically 
upgrade security at far less cost than the current plan, stop 
the aboveground design and take the design of the DAF, which 
the Corps of Engineers built for less than $100 million, far 
less than the $380 million that is currently estimated for 
HEUMF.
    A second option would be to incorporate berming into the 
current design. DOE officials have privately suggested that 
berming would be an important security improvement to the 
building.
    Pantex. Pantex stores thousands of plutonium pits, some for 
over 40- to 50-year-old weapons, in World War II-era bunkers in 
an area called Zone 4. Zone 4 is located at the end of an 
Amarillo airport runway.
    Plutonium in Zone 4 should be moved onsite to the more 
appropriately located and secured Zone 12. I will skip--there 
are two under-utilized facilities that are terrific to store, 
especially nuclear material, and one is the DAF, which is 
hardly used, and the other is building 691 at Idaho National 
Lab. There was $10 million appropriated for that, but 
apparently it stalled.
    The sites that have inadequate security standards: BWXT and 
Nuclear Fuel Services. Two facilities that should be of 
interest to the committee: BWXT in Lynchburg, Virginia and NFS 
in Erwin, Tennessee. They are commercially operated and 
primarily funded by the Office of Naval Reactors of the DOE. 
They house tens of tons of HEU that is owned by DOE's NNSA.
    NRC regulates the facilities and is responsible for setting 
the DBT and to test security at these sites. However, we 
understand that the DBT at these two sites is significantly 
lower than the DOE DBT to protect the same dangerous material, 
HEU.
    The recommendation is that POGO recommends transferring 
authority for security at these sites to the Department of 
Energy. Even with the strongest leadership from the Secretary's 
office, the only way these initiatives can be enacted is with 
your committee's continued vigilance.
    DOE's history has shown that without constant pressure from 
Congress and specifically from this subcommittee, these 
consolidation initiatives will likely fail.
    Thank you.
    [The prepared statement of Mr. Stockton can be found in the 
Appendix on page 61.]
    Mr. Thornberry. Thank you both for your testimony.
    I yield to the gentlelady from California for five minutes.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Dr. Overskei, thank you very much for your very thoughtful 
testimony.
    I am impressed that when your commission was put together, 
that you had the foresight to look back behind you. No one in 
Washington ever does that. And that you found, I think you said 
a dozen other assemblages of high ranking, smart people who had 
come forward with recommendations, and virtually nothing had 
been done over many years.
    Well, I commit to you that that will not be the state of 
your endeavor. I think that it is well time that we take a good 
look at this.
    I think that your comments were important, specifically 
because I think you really put a bead on something that I have 
focused on for quite a long time, which is that RRW in and of 
itself is not a weapon. It is a concept, and it is an attempt 
to do what I think has been necessary for quite a long time.
    I do represent Livermore and Sandia Lab in California. It 
is a beautiful place, and we have, I think, some of the 
smartest people in the world that have worked there for over 50 
years and have been silent soldiers in winning the Cold War and 
doing a fabulous job.
    But we do need a complex that is 21st-century, that is 
revolutionary, and that is really applying the best asset we 
have, which is thinking people. And I think that the reason to 
look at RRW specifically is because we need refurbishment and 
we need reinvestment, we need rejuvenation, and we need to be 
able to understand how to get the weapons from a state where 
they are perhaps more dangerous than they need to be, although 
reliable, and not necessarily the safest places, but safe, and 
really maximize the opportunity to have everything we can have, 
including a durable and safe deterrence for the American 
people.
    So I think that I can commit to you from my personal point 
of view that it has been a long time coming, but perhaps this 
is the time that has arrived that we can work together.
    And, Mr. Stockton, I appreciate your comments, and I think 
that what you are reflecting is obviously everybody's sense 
that it is time to take a lot of this material that has been 
unfortunately spread across a far-reaching complex, and move it 
into much safer and secure ways, where we can still have use of 
it, but we can use 21st-century technology to be able to do 
that and not have it exposed to either my beautiful encroaching 
suburbs or to bad guys. So I appreciate POGO's work. I know 
that you have been a long-time soldier in this field, and I 
appreciate the fact that you came in today to testify.
    Mr. Chairman, I don't have a specific question. I am 
looking forward to engaging Mr. D'Agostino in the future when 
he testifies, but I want to--in a very positive way. In a very 
positive way, because I am very happy with his appointment. But 
I just wanted to tell--I have an opening statement I also would 
like to have sent into the record, if you don't mind, Mr. 
Chairman, because I know that we are going to move on to 
testimony.
    And I appreciate the time to engage both of you.
    Thank you.
    [The prepared statement of Ms. Tauscher can be found in the 
Appendix on page 46.]
    Mr. Everett [presiding]. Mr. Thornberry, you are very good 
at that.
    Mr. Thornberry. Well, I was just trying it out to see if it 
worked.
    Thank you, Mr. Chairman.
    Let me just ask briefly, Dr. Overskei, of the reports you 
talked about, was one of them the President's Foreign 
Intelligence Advisory Board report from about 1996 or so, 
chaired by Senator Rudman?
    Dr. Overskei. Well, I don't know if it was about 1996.
    Mr. Thornberry. 1999? In that ballpark?
    Dr. Overskei. It was one of the ones that----
    Mr. Thornberry. Well, I guess I beg to differ with you a 
little bit, because Congress acted very strongly on that, and 
actually enacted one of its recommendations, which was to 
create the NNSA to begin with. And most of the reasons, most of 
the concern in that report was a lot of the things that you are 
still talking about: not having an integrated, independent 
enterprise; not managing risks effectively.
    So, you know, I am left somewhat with the view that we have 
acted but it has at least not yet--and there will be different 
views about why--accomplished the hopes and aspirations of the 
legislation or that report.
    The other thing I am just struck by is that the NNSA has 
compiled just a chart summarizing your seven major 
recommendations. The first five are things that they agree need 
to be done and are in their recommendations. Have you glanced 
at what they intend to do?
    Dr. Overskei. Well, they have shared with me their 
testimony.
    Mr. Thornberry. Okay.
    Dr. Overskei. And I know that there are a number of items 
that they are proposing to do, but I have not been privy to the 
details.
    Mr. Thornberry. Okay. Well, I am just struck by the fact 
that many of the things, five of the seven, are basically they 
say yes.
    The differences are more in degree, from both of you. But 
it seems like everybody says we have got to consolidate 
production, consolidate materials, and if there is a strong 
message I am hearing from both of you and from NNSA testimony, 
it is that they have some differences from you on how much to 
consolidate.
    I think they are very much in line with the POGO testimony 
about a lot of the consolidation and I think that to me is the 
strongest thing to come out of that, so we are left with, okay, 
everybody agrees with this trend. Now we have a certain number 
of dollars to work with and various things, and we have got to 
try to figure out how to move down that road.
    And that seems to me to kind of be a summary of where all 
of this wraps up. Do you disagree?
    Dr. Overskei. No, sir, I do not. And if I could elaborate, 
probably the fundamental area of disagreement is associated 
with the CNPC. I would believe and I would represent and be 
glad to go through the logic--and some of this is in the 
written testimony--that in fact, if you upgrade and refurbish 
the infrastructure in the existing sites, I will represent that 
it will exceed the cost of CNPC.
    And the second element is that there has been some 
representation that CNPC is a distraction from the obligation 
that the complex has to sustain and maintain the current 
stockpile. And again, I would represent that if you have a CNPC 
where you are not having ongoing construction and modernization 
at the existing complex, those organizations like Pantex and Y-
12, Sandia and the design labs can focus on maintaining the 
existing stockpile and focus on the RRW, where you build a new 
CNPC for production. And you will retain the focus and the 
intensity that will give you enormous benefits as far as 
productivity and efficiency.
    Mr. Thornberry. And I appreciate your point of view. I 
think there are some other elements--people-related elements, 
among other things--that could be brought into it, but I don't 
really want to get into a debate on it.
    Mr. Stockton, from what you have seen and what you have 
learned about the general direction NNSA proposes to take on 
consolidation, it seems to me to be consistent with what you 
had said too. Do you agree?
    Mr. Stockton. I haven't seen all of their recommendations, 
I have to tell you.
    Clearly, at Livermore we are not overwhelmed with the 
schedule there, and from my experience, if the Secretary 
doesn't say ``I want it done'' and introduce immediacy to it 
and have a schedule, you know--as we have mentioned in the 
testimony, this is two administrations from now. It could be 
four Secretaries of Energy from now. And everything changes. 
And I think that, you know, they made the decisions.
    I mean, we don't know. We don't understand why they have 
the material there in the first place under the conditions they 
have it.
    Mr. Thornberry. But you would want to push harder, and I 
think you have made that clear, and I appreciate that.
    Thank you, Mr. Chairman. I yield back.
    Mr. Everett. Mr. Schwarz.
    Dr. Schwarz. I have no specific questions, but I have an 
interest, and I will just kind of state the interest, which 
probably is a universal interest, and then I have personal 
interest in the next two gentlemen who will testify.
    But I assume what we want here is the most efficient, most 
secure facility we can possibly have to store existing 
warheads, to get on with the reliable replacement warhead, 
store uranium, see if plutonium and uranium should be stored in 
the same facility, should they be separated, and to make that 
facility as secure as possible.
    Which brings up the question, why, if security is 
paramount, would we have one facility and one facility only for 
storage? That is a little bit of a mystery to me. And I know 
that if in fact that is what at least one of you seems to 
advocate, you can explain why. It seems to me it would make it 
terribly vulnerable, even if it were underground and hardened, 
someone could drop a GPS-controlled, Ms. Tauscher's favorite 
weapon, on it.
    Ms. Tauscher. We killed that.
    Dr. Schwarz. And take that facility out, at which point we 
have no further nuclear deterrent.
    So I have lots of questions. I don't have the answers. My 
learning curve on this is very steep. But if you get to any of 
that as you respond to questions, I would be most interested in 
those responses.
    Thank you, Mr. Chairman.
    Dr. Overskei. May I have a quick response to that?
    Mr. Everett. Certainly.
    Dr. Overskei. Let me point out that we are not proposing 
that the nuclear weapons, full up weapons, be stored at the 
CNPC. Rather, these are deployed and they are in the custody of 
DOD and they are stored at distributed locations. Number one.
    Number two, it is important to understand that there are 
already four, at least four single points of failure in the 
complex. There is only one location that does tritium. There is 
only one location that does assembly. There is only one 
location that does pits, and actually, it doesn't produce pits, 
unfortunately. And there is only one location that does 
secondaries and the uranium.
    So if you take out any one of those locations, you have 
taken out the capability of producing a weapon. And if this 
country runs into a situation where we have deployed, where we 
have utilized the entire deployed stockpile plus the reserves 
and failed for want of one additional weapon out of the 
complex, then we have other issues that are of greater 
severity.
    Mr. Everett. Thank you.
    I would say the learning curve here is really steep.
    Dr. Overskei, you wanted to talk about some costs earlier, 
and I want to use my time to allow you to do that.
    Dr. Overskei. One of the elements about the cost, and I 
would refer to--we are talking about the cost of the CNPC, for 
example, because that is one of the big driver elements.
    If you look at the infrastructure investment costs that 
have to go in--let me back up. Pantex, Y-12, our two main 
production facilities, are very old. Both of them require 
substantial investment in the infrastructure, the electricity, 
the steam, other support services and utilities, in addition to 
rebuilding the actual physical structures. And the 
infrastructure investment in those two locations alone are a 
substantial portion, greater than 50 percent, of the cost of a 
CNPC. But they are going to be retrofit, so you will be putting 
in security systems and production systems that would only meet 
requirements, but it is a retrofit.
    And any of you that have had any real property where you 
have had to modernize, you realize that the cost of building 
something and building it to design is far cheaper than 
refurbishment of existing infrastructure. So we would represent 
that the infrastructure costs at Pantex, Y-12, are already a 
major portion of the cost of the CNPC.
    And then as you go to Los Alamos National Laboratory, it is 
going to cost--and these numbers are very speculative in the 
sense that I don't have the accurate numbers that the 
Department of Energy and the NNSA is working on. But our 
estimation of, if you put a CMRR that is capable of doing class 
one and two work at LANL and if you put in the security system 
at LANL that they are talking about, which is a quarter of a 
billion dollars alone for the pit production, and about $1 
billion to $1.5 billion of modernization of the pit production 
at LANL, and you still won't have the capacity that DOD 
requires, when you aggregate that with the infrastructure 
investments of Pantex and Y-12, you have paid for the CNPC and 
you will just have refurbished buildings at old World War II 
sites, and they will not have the security requirements that 
you will need in the future.
    I could go into much greater detail, but I feel quite 
passionate about this.
    Mr. Everett. Ms. Tauscher, have you another question?
    Ms. Tauscher. I don't of these witnesses. I do want to get 
to Mr. D'Agostino, the deputy director. Why does everybody 
think that that is such an ominous thing? It is a good thing.
    Mr. Everett. Let me thank this panel for being here today. 
We appreciate you showing up, and we also invite you to stay if 
you would like for the next panel.
    Thank you, again. And I dismiss you at this time.
    Mr. D'Agostino, I believe it is your turn at bat. You may 
proceed at any time. Your complete testimony will be made a 
part of the record.

  STATEMENT OF THOMAS P. D'AGOSTINO, DEPUTY ADMINISTRATOR FOR 
   DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Mr. D'Agostino. Chairman Everett, Members of the committee, 
thank you for the opportunity to appear before you today to 
discuss our plans to revitalize and transform nuclear weapons 
complex infrastructure.
    I have submitted my full testimony for the record. I would 
like to briefly summarize it here.
    In this effort, we have benefited greatly from the work of 
the Secretary of Energy's Advisory Board Task Force on the 
Nuclear Weapons Complex Infrastructure, subsequently referred 
to as the task force, and chaired by Dr. David Overskei. Today 
I will describe the concrete actions that our department is 
taking to realize our vision for the future of the complex.
    The chart that you have before you, which was referred to 
previously, compares our path forward with the recommendations 
of the task force. We agree with the task force's 
recommendation for the immediate design of a reliable 
replacement warhead or RRW. And we really believe the RRW is an 
enabler, providing enormous leverage for a more efficient and 
responsive infrastructure and opportunities for a smaller 
stockpile.
    In addition, the greater performance margins of RRW 
concepts are expected to significantly reduce the possibility 
of the United States ever needing a return to nuclear testing.
    The task force recommends that NNSA aggressively pursue 
dismantlement. We agree and we are. Dismantlements will 
increase by 50 percent next year.
    The task force also recommends that the department 
establish an Office of Transformation to serve as an agent for 
change. We are creating such an office.
    The task force contributed valuable insights relative to 
the way we manage risks and called for a more integrated and 
interdependent nuclear weapons complex. Already under way, we 
are creating multi-site key incentives and more uniformity in 
technical and business practices to achieve such an enterprise.
    There are two key recommendations from the task force with 
which we partially agree but differ on specifics. The most 
sweeping recommendation was to establish by 2015 a consolidated 
nuclear production center, or CNPC, to be the single site for 
all production involving large amounts of special nuclear 
material, or SNM, that require very high levels of security.
    Our approach is to establish distributed production centers 
of excellence which take advantage of expertise imbedded in the 
workforce and leverage significant prior investment in the 
infrastructure at these production centers. The task force also 
urges consolidation of large quantities of SNM to the CNPC. We 
strongly agree with the principle of SNM consolidation and we 
have proposed an approach that will move from our national 
laboratories large quantities of SNM requiring costly security.
    Our 2030 vision will drive SNM to fewer sites and fewer 
locations within sites, but not to a single site.
    The second chart that you have summarizes the key aspects 
of transformation to complex 2030. Our future complex retains 
two independent centers of excellence for nuclear physics 
located at Los Alamos and Livermore, each supported by Sandia 
for non-nuclear component design and a site in Nevada for 
testing.
    Consistent with the recommendation of the task force, we 
plan to eliminate duplicative capabilities and activities and 
operate our major laboratory research capabilities and user 
facilities to support the entire complex. All research, 
development and production involving large quantities of highly 
enriched uranium would be carried out at Y-12. When the new 
uranium storage and processing facilities are operating, they 
will permit a major consolidation of activities and a reduction 
in the high security footprint by nearly 90 percent, thus 
lowering costs.
    All activities involving large quantities of plutonium will 
be transferred to a consolidated production center by the early 
2020's. The existing plutonium facility at Los Alamos will 
provide an interim capability until the new center is 
operational. The consolidated plutonium center is not a 
repackaged modern pit facility but a center that would 
consolidate into a single site all of the plutonium research 
development, production and surveillance activities that 
require costly security.
    The location of the center remains to be determined in 
compliance with any required national environmental policy act 
process, but it would be situated at an existing DOE site 
having security capabilities for large quantities of SNM. We 
won't be creating a new site.
    A new modern and efficient non-nuclear production facility 
building for the Kansas City plant would be in operation by 
2012 and sized to produce components and conduct operations 
that cannot be procured from commercial vendors.
    While we agree with much of what the task force recommends, 
we cannot commit to a CNPC. Let me explain why.
    Investments in an accelerated CNPC would be in conflict 
with our ability to support the existing stockpile. Further, 
based on a review of other large one-of-a-kind projects, it is 
not plausible for the CNPC to be designed, built and operating 
on the short timeline proposed by the task force necessary to 
realize subjective benefits. Also, the challenges of 
transitioning the highly-skilled workforce to a new location, 
particularly in the unique and highly-skilled jobs involving 
uranium and plutonium are often underestimated.
    Our approach achieves the benefits of the task force 
approach, consolidation of SNM and facilities, integrating 
research and development and production, aggressive 
dismantlement, but it does so in a way that supports near-term 
national security needs, is technically feasible and is 
affordable over both the near and the longer term.
    We recognize that business as usual is not sustainable, 
will not be successful and it cannot be the path we choose. 
Indeed, our complex 2030 vision represents a significant 
departure from the current strategy. Working closely with 
Charlie Anderson and the Nuclear Materials Disposition and 
Consolidation Coordination Committee, SNM will be consolidated 
to fewer sites and fewer locations within sites.
    Nuclear production will take place at centers of excellence 
for uranium, plutonium and assembly/disassembly in modern, non-
nuclear component production facilities would significantly 
reduce costs associated with non-nuclear production. Focused 
design and certification activities will take place at national 
laboratories that are not encumbered by responsibilities for 
nuclear production or security requirements for large 
quantities of SNM.
    The Nevada Test Site would become the single site for all 
testing involving large quantities of SNM. As a result of these 
activities, the physical footprint of the weapons complex will 
be substantially reduced.
    Finally, accelerated dismantlement of retired warheads and 
fewer deployed warheads based on RRW concepts that reduce the 
need for nuclear testing ensure the stockpile and 
infrastructure transformation is not misperceived as restarting 
the arms race.
    Over the next 18 months, I seek to demonstrate that the 
transformation path that I described here today is fully viable 
and through the list of commitments on the third chart show 
that we are getting the job done. By 2030, the vision I set 
forth is of a world where a smaller, safer, more secure 
stockpile with assured reliability over the long term is backed 
by an industrial and design capability to respond to changing 
technical, geopolitical or military needs. It offers the best 
hope of achieving the President's vision of a small stockpile 
consistent with our national security needs.
    Thank you for your attention, and I look forward to your 
questions.
    [The prepared statement of Mr. D'Agostino can be found in 
the Appendix on page 73.]
    Mr. Everett. Thank you.
    Mr. Anderson.

 STATEMENT OF CHARLES E. ANDERSON, PRINCIPAL DEPUTY ASSISTANT 
      SECRETARY FOR THE OFFICE OF ENVIRONMENTAL MANAGEMENT

    Mr. Anderson. Good afternoon. My name is Charlie Anderson. 
I am the Chairman of the Department's Nuclear Materials 
Disposition and Consolidation Coordination Committee (NMDCCC), 
quite a mouth full.
    I am pleased to be here today with Deputy Administrator 
D'Agostino to provide you an update and answer your questions 
on the Department's efforts to consolidate and disposition its 
nuclear materials.
    Mr. Chairman, I want to thank you and your subcommittee for 
your interest in this complex challenge. It is vital to our 
nation's security.
    Last year Secretary Bodman formally chartered the Nuclear 
Materials Disposition and Consolidation Coordination Committee. 
While individual programs, such as the NNSA, as addressed by 
Tom a moment ago, the Office of Nuclear Energy and 
Environmental Management have their own disposition and 
consolidation projects, the purpose of the Department's 
committee is to ensure integration of individual program 
efforts thus identifying opportunities for resource sharing.
    The principal mission of our committee is to provide a 
forum to perform cross-cutting nuclear materials disposition 
and consolidation planning with the objective of developing 
implementation plans for consolidation and disposition, as 
appropriate.
    I have personally been involved in nuclear material 
management for a number of years, currently with the Office of 
Environmental Management and previous positions, including with 
NNSA.
    Nuclear material disposition and consolidation is important 
to the Department and while progress on intra-site 
consolidation has been made, the Department has been less 
successful in transferring nuclear materials from one site to 
another. But some progress has been made.
    As illustrated by a few charts that I have brought today, 
currently we have our nuclear materials in category I 
facilities at 10 sites across the DOE complex. Category I 
materials are typically those materials, types and amounts that 
are stored in one location that could easily be made into a 
nuclear weapon.
    In 1995 there were 36 category I facilities across the 
complex. As noted on the chart here, it is a different 
location. I will note the ESE designation there for 
environment, science and energy is basically just to show the 
non-NNSA locations versus the NNSA. And then, also, then, as we 
show, in Tennessee, where we have both interests.
    As the next chart will show, in 2006 we are down to 21 
category I facilities. I won't go into each one of those, but 
the charts are available for you and we can follow up with 
questions related to that later.
    Since becoming Chairman of the committee in November 2005, 
meetings have occurred at least once a month, and have included 
representatives from each of the DOE organization that are 
responsible for nuclear materials, as well as senior advisors 
from other organizations within the department. I am also 
briefed with the Defense Nuclear Facilities Safety Board 
monthly since my appointment on the progress of the committee.
    It is made clear to me that the Secretary expects the 
NMDCCC to make progress. Our committee needed a streamlined 
approached to and a clear understanding of the challenges it 
faced. I indicated in testimony before the House Energy and 
Commerce Subcommittee on Oversight and Investigation in October 
2005 that the committee was about a year and a half away from 
delivering a strategic plan. We are making progress on a 
strategic plan and it sets the stage for my committee to 
develop individual implementation plans.
    An individual implementation plan will consist of: a clear, 
concise statement of the problem; a listing of all known 
pertinent facts, including source documents for those facts; a 
listing of alternatives; cost evaluation of viable 
alternatives; and a recommended path forward. I refer to this a 
lot as the scientific approach to solving our disposition and 
consolidation problem.
    Implementation plans will be transmitted, as appropriate, 
to the Secretary for final decision after approval by the 
committee.
    Through our work on the strategic plan, the committee has 
identified eight near-term issues we need to address. 
Consolidation of excess plutonium-239, which you have heard 
some discussion about today. I will note that some of these 
issues have some overlap, which I will try to address either in 
questions or through some of the discussion here.
    This consolidation of plutonium-239 is particularly noted 
in relation to the material in Hanford, the material at 
Lawrence Livermore and the material at Los Alamos.
    The removal of surplus weapon pits from zone 4 at Pantex. 
Plutonium-239 material, the surplus material destined mostly 
for the mixed oxide (MOX) fuel fabrication facility we 
constructed at the Savannah River site. Removal of all category 
I and II material from Lawrence Livermore National Laboratory. 
I speak to this as not all the material there is just 
plutonium-239, but we have to look at all of the special 
nuclear material there that needs to be removed and relocated 
to another area.
    Disposition of the uranium-233 from the Oak Ridge National 
Laboratory. Removal of surplus material from Y-12, including 
material like the Aberdeen material. Removal of surplus 
material from Los Alamos National Laboratory. Removal of the 
Sandia National Laboratory nuclear materials. And consolidation 
of plutonium-238.
    As you can see from this list, a lot of it overlaps both 
the needs of the consolidation or the complex 2030 program that 
Tom D'Agostino talked about here, as well as some programs with 
Nuclear Energy and the Office of Science.
    We have concluded the top priority currently facing our 
committee was to identify a path forward for the plutonium-239 
at our Hanford site, determined to be the highest priority at 
this point chiefly because of the urgency associated with 
removal of this material in order to avoid the expenditure of 
significant funding at Hanford to meet the latest security 
requirements, which would require a new facility at Hanford.
    While developing the implementation plan of consolidation 
of plutonium-239, the committee has identified three 
alternatives primarily and is currently evaluating each. That 
would be the continued storage at the current sites, 
consolidation and storage at an interim site and consolidation 
and storage at the disposition site.
    Consolidation of this material is being encouraged by 
Members of Congress, stakeholders, the Government 
Accountability Office, and the Defense Nuclear Facilities 
Safety Board. Our committee is currently reviewing the 
pertinent facts and evaluating the cost associated with the 
alternatives, including looking at previous reports and studies 
that have been done over the past decade about this material, 
ever since the end of the Cold War.
    These facts include the necessary steps that need to be 
taken to meet applicable statutory requirements, before 
developing the recommended path forward.
    In closing, it is very important to keep in mind that, 
while the Department has not yet made a decision to further 
consolidate nuclear materials, the committee is very active, 
and our activities are initially focused on completing the 
strategic plan and the implementation plan for the plutonium-
239 material.
    Thank you for allowing me the opportunity to testify, and 
at this time I would like to submit my full statement for the 
record.
    Mr. Everett. Without objection.
    Mr. Anderson. And I would be pleased to answer any 
questions related to consolidation and disposition efforts.
    [The prepared statement of Mr. Anderson can be found in the 
Appendix on page 86.]
    Mr. Everett. Thank you.
    Mr. D'Agostino, perhaps you can help me understand 
something. Around here, we know if we postpone something for a 
year, then by X factor it is more expensive the next year and 
then the next year and then the next year.
    Mr. D'Agostino. Yes, Mr. Chairman.
    Mr. Everett. There are those who say that the life 
expectancy of these warheads is 40 or 50 years, and then there 
are those who say it is anywhere from 70 to 80 and perhaps 90 
years. Can you give me an idea of how long the life expectancy 
may be? And if the life expectancy is longer than we have been 
given by NNSA, are we better suited to go ahead and start 
replacement because of the increase in cost that we will incur 
later on?
    Mr. D'Agostino. I will take the question, and the answer to 
the first question will then get into the second question. And 
if I miss the intent of the second question, I would ask you to 
repeat the question.
    The history of the weapons program was such that the 
nuclear weapons complex during the 1960's, 1970's and 1980's 
was always in a mode, as Dr. Overskei described, of continually 
exercising the various legs of design, development, production, 
certification, testing and back around again. So we were 
constantly in a mode of cycling just the nature of where we 
were at the time.
    And so, in essence, we were going through a cycle of where 
warheads would be cycled through, depending on the specific 
military need and the design cycle, in 50- and 30-year cycles. 
So, in essence, the original design life, and again, the 
weapons were based around that type of a flow rate.
    In the early 1990's, when we shifted into a stockpile 
stewardship program, where requirements essentially stopped, we 
realized that we needed to ensure through stockpile stewardship 
and the tools we developed, that we understood exactly the 
aging mechanisms, because we figured we don't have a history 
beyond 30 years typically on many of these components.
    And so we went through a system-by-system, component-by-
component and part-by-part analysis across the whole set of 
warheads and legacy stockpile to determine which parts need to 
be replaced exactly the way they were previously designed in 
order to ensure ourselves that we were maintaining that 
stockpile out into the future. And we call this the life 
extension program. And we gather these types of activities in 
blocks.
    We completed the life extension program for the W87 warhead 
and we are in the process, as you know, sir, on the B62 
warhead, the W76 warhead and the W80 warhead life extension 
activity. So the path we are on right now continues on with the 
idea that every 20 to 30 years or so we would cycle warheads 
through a successive series of life extension, as Dr. Overskei 
describes. The key is that the life extension process that I 
have just described replaces components exactly the way that 
they were designed before. It is an exact replica.
    The difference with RRW is to build robustness into the 
components themselves, instead of just replacing the exact 
internals, we would ensure that we have the right components, 
that are sustainable over the long term, that are easier to 
manufacture, that drive safety and security into the system 
itself.
    So there is no magic number that says after a certain 
period of time the weapon is essentially not useable anymore, 
because our approach over the last 15 years has been to employ 
the stockpile stewardship, and we were in the process of 
continuing that stockpile stewardship lifecycle of LEPs.
    But now we are entering into a new phase, and with the 
concepts that Ms. Tauscher described earlier and Dr. Overskei 
described earlier, there is an opportunity to drive the complex 
in a different direction, one we feel that has better long-term 
sustainability for the complex in addition to ensuring that our 
design margins over time remain sufficiently far away so we 
will never need to come back to nuclear testing.
    In that long answer, I probably forgot your second 
question. I apologize, Mr. Chairman.
    Mr. Everett. No. I was just concerned that the cycle is 
every 30 years, and we know that the warheads last for 50 
years. Should we be on a 50-year cycle of replacement? Or 
should we be continuing on a 30-year cycle of replacement when 
we put RRW into effect?
    Mr. D'Agostino. The danger, of course, even with a 30-year 
cycle, and Dr. Overskei talked about it, we agree, is this 
concept of exercising the workforce. We need to get the 
workforce commensurate with the size of the stockpile, get it 
focused, and exercise our design and production complex so we 
don't go through periods similar to where we are right now, 
where for essentially the last 15 years we have not exercised 
our production complex the way you would exercise when you are 
maintaining an automobile vehicle, which is to keep it 
exercised so that we know that it works.
    So even if some say that the warhead would last 50 years, 
the problem is that if it lasts 50 years with a design that is 
50 years--that was done 50 years ago and it doesn't introduce 
modern surety and safety features into the weapon itself and 
allows us to make sure that that weapon is protected.
    So the concept of exercising the complex, whether it is on 
a 15-year cycle or a 20-year cycle, I think we are going to be 
running through some detailed cost studies to figure out what 
the optimum cycle is to maintain the smallest, most cost 
efficient production complex and at the same time ensure that 
we have a workforce that feels that they are engaged in the 
program and are there for a reason, and they are not just 
waiting for 15 years for that next system to come through.
    I cannot overestimate the importance of the workforce in 
the weapons complex. These are folks that are committed 
professionals. They have very unique skills. They know what 
they have been doing. They have passed on these skills to 
successive workers that have come through behind them, and it 
is really not just the facilities and the infrastructure that 
we talked about, which we think of as a lot of bricks and 
mortar and maybe special tools that Congress authorizes and we 
go off and build. But it is actually the workers that know how 
to use these tools that really make these things happen.
    Mr. Everett. Thank you.
    Mr. Anderson, my time is up, but I want to come up to you a 
little later. Right now I am going to give Ms. Tauscher 5 
minutes.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Deputy Administrator D'Agostino, welcome. This is your 
maiden voyage----
    Mr. D'Agostino. Yes, it is. Thank you, Ms. Tauscher.
    Ms. Tauscher [continuing]. After your confirmation and your 
swearing in.
    Mr. Anderson, welcome too.
    Let me see, Mr. D'Agostino. This plan to consolidate the 
plutonium from Livermore over to CMRR at Los Alamos, I just 
want to have some assurances that Lawrence Livermore scientists 
that actually go to Los Alamos will have, you know, significant 
enough peer review ability and that won't be impacted, that 
there will be protocols developed to ensure that they can 
really effectively and safely operate at CMRR. I mean, this is 
part of what a congresswoman representing Livermore would do. 
But I think that this is an important issue, that these 
assurances are made clear and on the record and I assume that 
you would make them.
    Mr. D'Agostino. Absolutely. I will wholeheartedly agree 
with your position and your points. I think it is consistent 
with the idea of an integrated and interdependent enterprise. 
The concept of interdependency is one that we haven't 
capitalized on and we need to, and part of that recognizes the 
fact that scientists at Lawrence Livermore are interdependent 
on the facilities and capabilities the Nation has placed at Los 
Alamos.
    That doesn't mean that one laboratory gets a precedent over 
the other laboratory. Peer review is critically important here 
and I agree completely with the concept. I support it 100 
percent.
    Ms. Tauscher. I am very impressed by your statements today 
and your testimony and our private conversations.
    I think that it is very important to recognize the 
partnership here between the intellectual asset base that we 
have in our scientists in these jewels in the crown in the 
national labs, and also that we have a very deteriorated 
complex that has ill-served everyone for a while, and that it 
is important to maximize their capabilities by now refurbishing 
the complex and bringing it up to not only code, but certainly 
to deliver for them and for the American people the kind of 
assurances that we have them doing the work that they need to 
do.
    Coming off of the chairman's question about the utility and 
the age of weapons, I think the pits are the real issue here, 
and I think that you and I have had a conversation before. 
There seems to be--and I know you are doing a study--there 
seems to be widely varying estimation of how pits age and 
actually are we at the half-life of pits at 50 years or are 
they really, really old and have to be replaced, or actually 
were the scientists and the designers so conservative over the 
last 30 years that actually--this would not surprise me, by the 
way--that actually they can go for 2X more time. They actually 
could go a lot longer.
    And I know you are doing a study to take a look at that. I 
think this is an important piece of our decision on investment 
policy going forward, because the pits--could either be a big 
thing, which I am not for right now, intellectually.
    But can you just talk, very briefly, or even answer us, to 
the staff specifically, in writing, your concept of what, 
depending on the answer for this study, what you think the 
opportunities are going forward on the pit facility and how 
that kind of goes into everything else?
    Mr. D'Agostino. Absolutely. I would like to do both, 
actually, respond orally and then follow it up with writing to 
the subcommittee. I think it is important that you have a 
written down answer to that question.
    But let me talk a little bit about plutonium. Plutonium, as 
you know, is a manmade material. The oldest bit of plutonium we 
have dates back, obviously, many decades ago, but that is it. 
That is as far as we know about the aging of plutonium, and we 
are conducting accelerated aging studies, as you have described 
in your question.
    We do have what we call a level 1 milestone, which is a 
milestone that we track, which we feel has got significant 
importance not only within the program, but within the 
department, and has interest across government agencies, 
including the legislative branch of the government itself, and 
that level 1 milestone has to do with determining, getting a 
system specific pit age characteristic for each of our systems. 
Since our systems are different, it is not just a matter of 
taking a number like, maybe 45 years, for example, and saying, 
well, that is it for everybody. Because each system is 
different.
    And you are right, there have been a wide variety of years 
that have been out in the press and in discussions over a wide 
range, describing what this would be. Our level 1 milestone is 
due to be complete at the end of this fiscal year and it will 
be independently reviewed by the group that you are aware of, a 
technically competent, independent group. And in all 
likelihood, they will probably ask for more data, but we do 
have information that we will be able to provide.
    But even looking at the concept of, let's say, for example, 
that the age is 2X or maybe even 3X, whatever the case may be, 
it is important to recognize that the reason why--responsive 
infrastructure is one of the legs of the nuclear posture 
review, an important element, an important part of assuring not 
only ourselves but our allies that we have a nuclear weapons 
enterprise that is responsive, that serves as an effective 
deterrent. Because essentially we want our deterrent to reside 
in our complex itself, not necessarily in the number of 
warheads we would have. And that helps us drive the stockpile 
numbers down.
    So by not having a plutonium capability, it gives our 
customer in the Defense Department and ourselves pause on 
whether we truly have a responsive infrastructure. But even 
setting responsive infrastructure aside, I would even submit 
that the idea behind the RRW, reliable replacement warhead 
concept, is to design in margin into the pit itself in order to 
ensure that we push our way further away from nuclear testing 
and get ourselves away and design a sustainable nuclear weapons 
stockpile.
    In addition to the sustainability question, we want to be 
able to design in features that enhance the security and surety 
of the weapon itself, so that the weapon itself is safer, 
easier to handle, easier to manufacture, gets us further away 
from design margins and reduces our chances of testing, and is 
in a situation where if somebody should happen--if we happen to 
lose control of a weapon itself, it would essentially not be a 
weapon because of the types of technology features we have 
inserted, and that is a very important part of RRW concept that 
we talked about.
    I will follow up with a written answer----
    [The information referred to can be found in the Appendix 
beginning on page 108.]
    Ms. Tauscher. I appreciate that.
    Mr. D'Agostino [continuing]. On the numbers themselves on 
pits, if I could, please.
    Ms. Tauscher. That is right, and we can share it with the 
committee.
    And, Mr. Anderson, thank you for a good job at EM. I don't 
have a question for you.
    Thank you, Mr. Chairman.
    Mr. Everett. Dr. Schwarz.
    Dr. Schwarz. I never thought that I would have to deal with 
physics again, because that is why I became a surgeon, because 
they kind of lost me after the incline plane and the mechanical 
advantage of pulleys in physics. So here we go.
    What I think would be best, Mr. D'Agostino, is perhaps if 
you could arrange some kind of a private tutorial for me, 
especially on the characteristics of the isotopes about which 
you speak. I was more conversant with them at one time. I did 
know a little bit about plutonium-238 and plutonium-239 and the 
various isotopes in uranium and what their qualities are, their 
half-lives, their applicability in atomic weapons. I do not 
anymore. It has long since been forgotten.
    And so I am not, Mr. Chairman, going to ask any questions, 
unless you would like to do a real quick couple of minutes on 
the characteristics of these isotopes. But I think I need to 
spend a little time with yourself or someone that you have 
appointed to come in and reacquaint someone who has been out of 
any sort of physics and only had just a smattering, a smidgeon 
of nuclear physics, when I was a student. It would help to 
understand this a lot more, and I want to understand it. I 
don't want to sit on this subcommittee or on the full committee 
not precisely understanding what you are doing.
    Mr. D'Agostino. Mr. Schwarz, I would love to come in with 
some folks and bring you up to speed on some of your questions. 
And we will be able to set that up with the staff.
    Dr. Schwarz. Thank you.
    Thank you, Mr. Chairman.
    Mr. Everett. I promised, Mr. Anderson, I would come back to 
you, and here I am.
    We spent an awful lot of money on--I will get it out in a 
minute--plutonium, especially at Hanford. Can you give us an 
idea of what obstacles you face, particularly state obstacles 
in Washington state and South Carolina, that has caused us not 
to move perhaps as quick as we should?
    Mr. Anderson. Yes, sir.
    First of all, as we are looking at the alternatives, one of 
the mistakes we did not want to repeat previously is to make 
sure we clearly laid out all of the alternatives. So in doing 
so, in going through the alternatives, we look at what some of 
the obstacles are. Some of those being dealing with a couple of 
the public laws that exist, the National Defense Authorization 
Act for Fiscal Year 2002, commonly referred to as Public Law 
107-107, which requires a clear identification of the 
disposition path for all plutonium received at Savannah River 
site after a date in 2002.
    That is for material that was not--that is for all of the 
plutonium material. There is another, the National Defense 
Authorization Act for Fiscal Year 2003, which has certain 
requirements related to the performance objectives for the 
mixed oxide fuel fabrication facility, for those materials that 
are planned to be processed through the mixed oxide fuel fab 
process. We have to make sure that we satisfy those. Some of 
those are reports that are required to Congress. The first one 
is a report that is required for disposition for all of the 
material that is received into Savannah River site.
    Obviously, there is a need for analysis that we are 
reviewing to make sure we are covered and make sure we both 
have the analysis and also determine where we would have to 
amend any Record's of Decision (ROD's) for a decision that we 
would make. And in this case, almost any decision we are going 
to make here would require some amended ROD, at a minimum.
    Those would be the primary things that we are looking at. I 
mean, we are looking hard to see if there is anything else, 
because we don't want to go down a path and find that we missed 
a law.
    Some of these also have to do with shipping containers, 
shipping casks. Not all of this material is in one form. In 
fact, most of it is in varied forms, and that is why I alluded 
to some overlap from the issues that we have.
    I mean, a lot of times, when we are questioned in relation 
to removing material, people will be discussing the majority of 
the material, which may already be in a form or in a container 
that is pretty straightforward, but there will be substantial 
other material that has to have some work done on it, or a 
special shipping container if we are going to ship it. And 
those are the primary barriers that we have looked at.
    Mr. Everett. Ms. Tauscher.
    Ms. Tauscher. Mr. Chairman, I have nothing else to ask. 
Thank you for offering, though.
    Mr. Everett. Dr. Schwarz.
    Dr. Schwarz. I said my piece and now I need to be taught.
    Mr. Everett. Gentlemen, thank you very much.
    We may have, for both panels, we may have some questions 
for the record, which we would ask you to respond to in real-
time rather than Washington time, and I am talking about maybe 
30 to 45 days, and we will make that distinction a little 
plainer in our request.
    Thank you again for coming.
    And the hearing is adjourned.
    [Whereupon, at 5:58 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             April 5, 2006

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 5, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8991.001
    
    [GRAPHIC] [TIFF OMITTED] T8991.002
    
    [GRAPHIC] [TIFF OMITTED] T8991.003
    
    [GRAPHIC] [TIFF OMITTED] T8991.004
    
    [GRAPHIC] [TIFF OMITTED] T8991.005
    
    [GRAPHIC] [TIFF OMITTED] T8991.006
    
    [GRAPHIC] [TIFF OMITTED] T8991.007
    
    [GRAPHIC] [TIFF OMITTED] T8991.008
    
    [GRAPHIC] [TIFF OMITTED] T8991.009
    
    [GRAPHIC] [TIFF OMITTED] T8991.010
    
    [GRAPHIC] [TIFF OMITTED] T8991.011
    
    [GRAPHIC] [TIFF OMITTED] T8991.012
    
    [GRAPHIC] [TIFF OMITTED] T8991.013
    
    [GRAPHIC] [TIFF OMITTED] T8991.014
    
    [GRAPHIC] [TIFF OMITTED] T8991.015
    
    [GRAPHIC] [TIFF OMITTED] T8991.016
    
    [GRAPHIC] [TIFF OMITTED] T8991.017
    
    [GRAPHIC] [TIFF OMITTED] T8991.018
    
    [GRAPHIC] [TIFF OMITTED] T8991.019
    
    [GRAPHIC] [TIFF OMITTED] T8991.020
    
    [GRAPHIC] [TIFF OMITTED] T8991.021
    
    [GRAPHIC] [TIFF OMITTED] T8991.022
    
    [GRAPHIC] [TIFF OMITTED] T8991.023
    
    [GRAPHIC] [TIFF OMITTED] T8991.024
    
    [GRAPHIC] [TIFF OMITTED] T8991.025
    
    [GRAPHIC] [TIFF OMITTED] T8991.026
    
    [GRAPHIC] [TIFF OMITTED] T8991.027
    
    [GRAPHIC] [TIFF OMITTED] T8991.028
    
    [GRAPHIC] [TIFF OMITTED] T8991.029
    
    [GRAPHIC] [TIFF OMITTED] T8991.030
    
    [GRAPHIC] [TIFF OMITTED] T8991.031
    
    [GRAPHIC] [TIFF OMITTED] T8991.032
    
    [GRAPHIC] [TIFF OMITTED] T8991.033
    
    [GRAPHIC] [TIFF OMITTED] T8991.034
    
    [GRAPHIC] [TIFF OMITTED] T8991.035
    
    [GRAPHIC] [TIFF OMITTED] T8991.036
    
    [GRAPHIC] [TIFF OMITTED] T8991.037
    
    [GRAPHIC] [TIFF OMITTED] T8991.038
    
    [GRAPHIC] [TIFF OMITTED] T8991.039
    
    [GRAPHIC] [TIFF OMITTED] T8991.040
    
    [GRAPHIC] [TIFF OMITTED] T8991.041
    
    [GRAPHIC] [TIFF OMITTED] T8991.042
    
    [GRAPHIC] [TIFF OMITTED] T8991.043
    
    [GRAPHIC] [TIFF OMITTED] T8991.044
    
    [GRAPHIC] [TIFF OMITTED] T8991.045
    
    [GRAPHIC] [TIFF OMITTED] T8991.046
    
    [GRAPHIC] [TIFF OMITTED] T8991.047
    
    [GRAPHIC] [TIFF OMITTED] T8991.048
    
    [GRAPHIC] [TIFF OMITTED] T8991.049
    
    [GRAPHIC] [TIFF OMITTED] T8991.050
    
    [GRAPHIC] [TIFF OMITTED] T8991.051
    
    [GRAPHIC] [TIFF OMITTED] T8991.052
    
    [GRAPHIC] [TIFF OMITTED] T8991.053
    
    [GRAPHIC] [TIFF OMITTED] T8991.054
    
    [GRAPHIC] [TIFF OMITTED] T8991.055
    
    [GRAPHIC] [TIFF OMITTED] T8991.056
    
    [GRAPHIC] [TIFF OMITTED] T8991.057
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 5, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8991.058
    
    [GRAPHIC] [TIFF OMITTED] T8991.059
    
    [GRAPHIC] [TIFF OMITTED] T8991.060
    
    [GRAPHIC] [TIFF OMITTED] T8991.061
    
    [GRAPHIC] [TIFF OMITTED] T8991.062
    
    [GRAPHIC] [TIFF OMITTED] T8991.063
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 5, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. EVERETT

    Mr. Everett. In your testimony you indicate that the Department of 
Defense has not operated as a partner with the Department of Energy in 
matters associated with the vision of the nuclear weapons complex of 
the future.
    What is your sense as to why DOD is not fully engaged with DOE?
    Dr. Overskei. There are several aspects:

    First, no particular vision of the nuclear weapons complex of the 
future, including the vision recommended by the SEAB Task Force, is 
widely held, either within NNSA or within the units of the DOD that 
interact with NNSA. Therefore, it should not be surprising that 
partnering between NNSA and DOD in the implementation of any vision is 
lacking when a common vision has not yet been adopted. NNSA will have 
to earn that partnering through two actions: (1) a clear articulation 
of their vision of the nuclear weapons complex of the future, and (2) 
performance in the execution of a plan to achieve that vision. The NNSA 
performance over the past decade has led to reduced DOD confidence in 
the capability of the Complex to achieve routine metrics, let alone a 
vision that requires nuclear weapons stockpile transformation. On the 
other side of the partnering equation, the DOD will have to allow the 
NNSA some elasticity to transform, through the RRW and some relaxation 
on the current stockpile obligations. The RRW becomes the enabler of a 
new partnership.
    Second, and related to the above, in the fifteen years since the 
demise of the Soviet Union as a threat to the United States, DOD 
expectations from the Complex have diminished, with a corresponding 
effect on the partnership. Currently, no other adversarial national 
force in the world has the capability to use nuclear weapons to 
challenge the very survival of the US. Now, many of the threats to the 
US come from non-nation entities. In such cases, nuclear weapons may 
not be an effective deterrent. Thus, the absence of a current, well 
articulated nuclear policy that incorporates the role of nuclear 
weapons in today's world is necessary for DOD and DOE to again be 
engaged partners in the nuclear weapons complex of the future.
    Third, in addition, the DOD does not have to deal with the budget 
issues/consequences that DOE must address to fulfill the DOD 
requirements.
    Mr. Everett. In your opinion, are the existing organizational 
relationships between the Department of Energy and the Department of 
Defense in the area of nuclear weapons matters working as intended?
    Dr. Overskei. As indicated above, the relationship was very 
effective and functional when the threat to the US was another nation 
that was also a large scale nuclear threat. Times have changed. In the 
last 15 years the DOD interest in the role of nuclear weapons in policy 
and planning activities has diminished. The role of nuclear weapons, 
including the size and composition of the stockpile, must be addressed 
at a high national policy level for the two agencies to again work 
together effectively.
    Mr. Everett. One of the objectives of the Reliable Replacement 
Warhead program is to design and certify new warheads without the need 
to conduct underground nuclear testing.
    During your task force study, were you able to reach any 
conclusions on whether NNSA could proceed with a Reliable Replacement 
Warhead program that does not require the resumption of testing?
    Dr. Overskei. Yes, we concluded that the design laboratories are 
definitely capable of designing and certifying a Reliable Replacement 
Warhead without the resumption of underground nuclear testing.
    Mr. Everett. If so, please explain the basis for your conclusion.
    Dr. Overskei. I requested a member of the task force, with one of 
our support staff, to question the designers at LLNL and LANL on this 
specific question. The head of the design groups at each of the two 
laboratories was individually queried on this exact question. Both 
design group heads agreed that a RRW with enhanced surety and use 
control features and higher margins could be designed without 
resumption of underground nuclear explosive testing, if the RRW design 
did not have to meet the previous yield/weight and yield/size 
requirements. This has also been reconfirmed to me in subsequent post 
SEAB discussions with the same laboratory design heads.
    With these relaxed requirements, the warhead design space is much 
more tractable. The breadth of understanding developed in the last 15 
years through the investment in the Science Based Stockpile Stewardship 
Program provides the basis for the designer confidence. The Labs have 
used this investment to develop modern computational tools, validated 
against data from previous nuclear test results. Many of the surety and 
use control mechanisms can be tested with new conventional test 
apparatus available at the three design laboratories without a nuclear 
explosive package test. These tools can now be used to design future 
systems. The combination of improved computational tools validated by 
existing test data, less restrictive design constraints, and higher 
operating margins, coupled with designers' confidence convinced our 
panel that the RRW can be implemented without a resumption of nuclear 
testing.
    Mr. Everett. In your testimony you highlight the fact that security 
costs within the Complex are approaching $1.0 billion a year. What is 
your assessment of how the DBT is being implemented at existing NNSA 
sites?
    Dr. Overskei. The DBT is being implemented without uniformity. 
This, in principle, is laudable, since the potential security threats, 
the terrain and the target material vary from site to site, and each 
site should not be considered to have the same risk profile. Thus, an 
informed, ``graded'' approach to site security is reasonable.
    However, during the SEAB visits to the Complex sites last year, no 
graded approach to DBT implementation was evident. All sites appeared 
to be treated as having the same level of risk. Furthermore, threat 
frequency (i.e., the probability of occurrence of particular threat 
scenarios) did not appear to be taken into account. We recognized that 
assuming all threat scenarios to have a probability of occurrence of 
unity is conservative, and that the postulation of actual threat 
frequencies is very uncertain. Nevertheless, more realistic assumptions 
about the capability of adversaries to plan, stage, and execute various 
scenarios should be developed, perhaps as a joint effort with the DOD.
    In addition, the requirement placed on site defenders to completely 
``deny access''--a zero probability of having the attacking force gain 
access to one or more targets, even for a brief period--is extremely 
unrealistic and exponentially increases the cost. Alternative 
strategies should be considered that incapacitate or eliminate the 
attacking force prior to any effective use of the target material. It 
is recognized that the deployment of systems to incapacitate or 
eliminate unauthorized intruders have the potential for inadvertent 
actuation, so that a potential safety risk might be incurred in order 
to reduce security risk. Modern risk-informed decision analysis is 
quite capable of examining the benefits of security risk reduction and 
any associated safety risk penalties, and comparing those benefits and 
penalties with the deployment and operational costs of the system along 
with any reductions in overall site efficiency and productivity in the 
conduct of their primary work mission. Capital and operational security 
costs at certain DOE sites may far outweigh the value of the work 
performed at those sites, work that could be performed elsewhere 
equally well, and be secured for far less money.
    Mr. Everett. With respect to NNSA and DOE security plans and 
compliance with the Design Basis Threat, what are your principal 
concerns? What, if anything, aside from material consolidation would 
you change in the area of current security practices within the current 
DOE complex?
    Mr. Stockton. POGO has a number of concerns about security at the 
U.S. nuclear weapons complex. In addition to the urgent need to 
deinventory sites containing Special Nuclear Materials in highly-
populated areas, such as Lawrence Livermore Lab, the following items 
remain our primary concerns:

- The 2003 DBT is to be fully implemented by October 2006. This is five 
years after 9/11. We believe there are several sites that will not be 
able to meet the 2003 DBT. The GAO has the same concerns. We understand 
that some sites are already requesting waivers because they can not 
meet the DBT--Hanford, Oak Ridge National Laboratory (ORNL), and one 
building at Y-12 has already received a waiver. The only way to 
determine whether a site meets the DBT is with performance tests--full 
up force-on-force (FOF). Generally when protective forces ``win'' a FOF 
they lose a high percentage of their force. Those results raise 
questions about combat effectiveness. It is important to keep in mind 
that the three major advantages that a terrorist group has in an attack 
is surprise, speed, and violence of action--none of which are tested in 
a FOF. POGO believes the site should be able to win a FOF test 
decisively--they don't.
- There is one critical site that requires a denial strategy--we 
believe the site has the wrong protective force on the target. We would 
be happy to supply the identity of the site to the committee, but do 
not want to identify it in a public document.
- Building 3019 at ORNL that houses weapons quantities of U-233 (that 
could be used to create an Improvised Nuclear Device (IND) or nulear 
detonation) has no Perimeter Intrusion Defense Assessment System 
(PIDAS) or stand-off truck bomb barriers. Their security plans still 
depend on deploying SRT's from Y-12 to save the day at ORNL, leaving Y-
12 vulnerable in case the attack at ORNL is a diversion. In fact, the 
SRT's would arrive long after the battle is over. Recently there was an 
independent security inspection by DOE headquarters of ORNL--they did 
not even bother to run a force-on-force test. Several years ago, ORNL 
ran a self-assessment FOF where the adversaries ``killed'' the entire 
ORNL guard force in 90 seconds. Because of Building 3019's location at 
the lab it is not clear they could protect the U-233, no matter what 
they did. It appears the only solution is to blend down the U-233 
immediately.
- DOE is in the process of spending millions of dollars on high-tech 
weapons, and detection technologies. In a number of cases, there are 
questions about the demonstrated effectiveness of these technologies. 
DOE should not spend millions of dollars deploying these technologies 
until they are proven effective.
- Admiral Meis' recent report to NNSA raises very basic questions about 
DOE's inability to develop their security plans. Issues of concern 
include: capability to develop vulnerability assessments; realism of 
limited scope force-on-force and full up FOF tests; development of Site 
Specific Security Plans (SSSP); DOE Headquarters' inability to review 
the SSSP's; quality of the adversary force being used in the 
Headquarters FOF tests; the lack of NNSA headquarters' oversight of 
security; and other deficiencies. We would encourage the Subcommittee 
to be briefed by Admiral Meis and his staff, if it has not already done 
so.
- The Y-12 Highly-Enriched Uranium Material Facility (HEUMF): Most 
security experts believe that modern nuclear facilities, and 
particularly SNM storage facilities should be underground or bermed, 
where only one side has to be protected. HEUMF was changed from a 
bermed facility to above ground, with five sides to protect. The costs 
for construction have ballooned from $90 million to close to $400 
million. They are currently experiencing construction problems because 
of the misreading of blue prints. We believe it is not too late to 
change the design, and require that it be at least bermed, if not 
underground.
- There are tens of tons of NNSA's Highly-Enriched Uranium (HEU) at two 
Nuclear Regulatory Commission (NRC) regulated facilities--Nuclear Fuel 
Services (NFS) in Tennessee and the BWXT facility in Lynchburg, 
Virginia--which fabricate fuel for the naval reactor programs. These 
sites are protected to a significantly lower security standard than DOE 
sites with the same HEU. A major concern about HEU is how quickly and 
easily an IND can be detonated using HEU. The IND issue is a Special 
Access Program (SAP) at DOE. NRC staff are not read into the SAP, 
because the Commission does not allow NRC personal to be polygraphed--a 
DOE requirement for learning about IND's.

    Therefore, the NRC does not understand the full risk posed by these 
two Category I facilities.
    Mr. Everett. With respect to the overall weapons design work at the 
three national labs and the shifts in Work for Others efforts for the 
intelligence community and for homeland security, is it time to take a 
fresh look at all (not just ``weapons design'') work done at the three 
labs and make some strategic decisions for reallocating the nature of 
work done let's say 10 years from now so as to achieve a healthy 
balance between the labs while retaining the ``peer review'' concept?
    Mr. D'Agostino. Our plans for ``Complex 2030'' assume that we will 
continuously evolve the work of the National Nuclear Security 
Administration (NNSA) design laboratories over the next 10-15 years. 
While the future research and development complex would retain two 
independent centers of excellence for nuclear weapons work at Los 
Alamos National Laboratory and Lawrence Livermore National Laboratory 
(each supported by Sandia National Laboratories for non-nuclear 
component design) we may make changes that will reallocate the nature 
of work done at an individual lab to achieve a healthy balance among 
the labs. At the same time, we plan to eliminate redundant capabilities 
and programs reflected in today's complex. In eliminating redundancies, 
however, we must ensure that intellectual competition required for 
truly independent peer review and assessment (critically important for 
an anticipated continued moratorium on nuclear tests), and essential 
capabilities for nuclear weapons science and technology are preserved.
    Further, we intend to identify and pursue additional strategic 
collaboration with other agency programs that provide technical 
challenges, enabling stewardship missions and national security. That 
process of strategic planning with other agencies will include 
intelligence and homeland security communities and should provide 
broader knowledge of overall program character and balance for the NNSA 
and other agencies in part to keep broad peer review enabled.
    Mr. Everett. At what point in the future do you think NNSA will 
realistically know whether you will be able to shift from the existing 
Life Extension Programs for our legacy weapons to the new Reliable 
Replacement Warhead program? What specific aspects of the complex would 
be most impacted by a potential future shift to an RRW-only nuclear 
stockpile?
    Mr. D'Agostino. The National Nuclear Security Administration (NNSA) 
is working in partnership with the Department of Defense (DOD) to 
define the most efficient stockpile transformation strategy. It is our 
desire to establish this transformation plan in a timely manner. Thus, 
our objective is to establish an all-Reliable Replacement Warhead 
stockpile plan as soon as practical after the benefits of the RRW have 
been confirmed and engineering development of the first warhead has 
been authorized by the Nuclear Weapons Council.
    NNSA and DOD are evaluating how to achieve an objective where RRW 
warheads comprise the majority of the stockpile by 2030. Early planning 
indicates that some refurbished (e.g., W76-1) and long-life (e.g., B83) 
legacy weapons will remain in the stockpile for augmentation until the 
mid to late 2030s. Every part of the nuclear weapons complex will be 
involved and made more efficient in a transformation to an RRW-only 
nuclear weapons stockpile. Transformation to a responsive 
infrastructure, as outlined in the ``Complex 2030'' vision, is enabled 
through transformation of the stockpile with RRW concepts.
    Mr. Everett. The Overskei Task Force recommended that new storage 
facilities for storage of Category I/II nuclear materials should be 
constructed underground. Given the design and construction problems 
that NNSA has experienced on the HEUMF project at Y-12, has NNSA 
considered starting over with a new, more robust design for an 
underground facility as has been suggested by POGO?
    Mr. D'Agostino. None of the recent developments suggest a weakness 
in the current facility for the Highly Enriched Uranium Materials 
Facility (HEUMF). We have found no problems with the current design and 
the construction subcontractor's performance problems were resolved 
within a few months. Construction has resumed.
    The choice between an underground and an aboveground design 
involves balancing many factors and all relevant factors were 
considered during validation of HEUMF's requirements. Each alternative 
offers unique advantages and disadvantages. Although some believe an 
underground design is inherently more secure, modern military 
technology for penetration of defenses weakens the case for the 
underground design and modern defensive technology strengthens the case 
for the aboveground design. The final choice has to balance all 
relevant factors to select the design that balances all considerations.
    Over two years before the Task Force's report, the National Nuclear 
Security Administration (NNSA) had evaluated the aboveground and 
underground alternatives found the aboveground alternative to meet the 
Design Basis Threat (DBT) with an adequate performance margin at a 
lower construction costs. The HEUMF project began construction in 2004, 
well before the Task Force prepared its recommendation.
    NNSA routinely evaluates its projects in light of new developments, 
however post-construction design changes such as those recommended by 
the Project on Government Oversight (POGO) will be very expensive and 
are not feasible. The 2004 changes to the DBT required extending the 
highest security features to an additional part of the facility. Making 
even this relatively modest design after start of construction has 
delayed the project by over eight months at a considerable increase in 
costs. A more fundamental change such as the addition of berms around 
the facility walls would require a major redesign of the entire 
facility and delay the project by one or more years. Addition of the 
berm's weight (a less significant structural change than total burial 
per POGO's recommendation) requires significantly more complex and 
expensive construction to meet nuclear seismic requirements. The 
significant delays and additional costs would not provide a 
commensurate improvement in security response over the robust security 
response already provided by the less complicated and inherently less 
expensive aboveground design.
    NNSA will not approach the design of future high security nuclear 
materials facilities with any preconceived notions or a priori 
constraints on the design, but will instead continue to evaluate the 
full range of alternatives.
    Mr. Everett. Recently, we have heard that the Russian Federation 
may not be inclined to support Russian funding for construction of a 
Russian Mixed Oxide or MOX facility for the disposition of excess 
weapons grade plutonium under the 2000 agreement signed by Russia and 
the United States. Assuming for a moment that the Russians did not 
proceed with a program to dispose of their excess plutonium under this 
agreement, would the Department of Energy nevertheless recommend that 
the United States proceed with the South Carolina MOX facility to 
dispose of excess U.S. weapons-grade plutonium as a domestic plutonium 
disposition project? Aside from MOX, what are our other options for 
plutonium disposition in the United States?
    Mr. Anderson. Although officials from the Russian Federation have 
informed the United States that they will use light water reactor 
technology to dispose of plutonium only if the costs are fully funded 
by international contributions, they have repeatedly stated that they 
remain committed to the 2000 agreement, in which both countries agreed 
to dispose of 34 tons of excess plutonium. We expect the Russian 
Federation to live up to its commitment. While discussions continue 
about the type of technology the Russians may use for plutonium 
disposition, the Department of Energy has decided to begin construction 
of the MOX facility in South Carolina this fall. Construction in South 
Carolina will proceed irrespective of the timing of Russian decisions 
about plutonium disposition.
    As part of a 2002 review of non-proliferation programs, DOE 
considered more than forty approaches with twelve distinct options, 
which were considered for more detailed analysis for plutonium 
disposition. A list of the options that were examined is available in 
the February 15, 2002 ``Report to Congress: Disposition of Surplus 
Defense Plutonium at Savannah River Site.'' As a result of the review, 
DOE confirms its decision to pursue a disposition approach that 
involves irradiating plutonium as mixed oxide (MOX) fuel in nuclear 
reactors.
    Mr. Everett. You were just assigned to serve as Chairman of the 
Nuclear Materials Disposition and Consolidation Coordination Committee 
last November. However, this committee is aware of similar efforts that 
preceded your current committee's tasking although it does not appear 
that previous efforts have actually developed a consolidation plan. 
What is your understanding of why it has taken so long for the 
Department to get where it is today on the issue of material 
consolidation?
    Mr. Anderson. Prior to the end of the Cold War, responsibility for 
management of the Department of Energy's (DOE) nuclear materials 
resided with a single entity, the Nuclear Materials Production program. 
Following the end of the Cold War, national priorities shifted from 
producing the nuclear materials necessary to support our national 
security to non-proliferation and cleaning up the weapons complex. 
Thus, responsibility for management of the DOE's existing nuclear 
materials was re-assigned to the individual programs that needed to use 
the materials. These programs have diverse missions (national security, 
science, energy production, and environmental cleanup) and the sequence 
of consolidation and disposition activities must be carefully 
considered to assess the effects on a range of programs to avoid 
hindering mission objectives, and to comply with all applicable laws 
and regulations. To address these cross-organizational issues, the 
restructured Nuclear Materials Disposition and Consolidation 
Coordination Committee has representatives from all affected 
organizations to formulate and implement integrated consolidation 
solutions.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SKELTON

    Mr. Skelton. People are always the key to any successful 
transformation. And it is the people working at the Kansas City Plant 
that deserve the credit for its reputation for delivering on 
commitments. That sustained excellence and value would be jeopardized 
by moving the mission away from the skilled people and the region. Do 
you acknowledge the risk to the mission of moving operations to another 
site?
    Mr. D'Agostino. I acknowledge that there are risks to the mission 
of moving operations to another site. Throughout the history of the 
nuclear weapons program there have been mission shifts that have 
resulted in cessation of operations at one site and movement of work, 
and people, to other sites. The end of the Cold War started a 
transformation of the nuclear weapons complex that resulted in shifting 
missions from facilities in Mound, Ohio, and Pinellas, Florida. 
Similarly, problems with the operation of the Rocky Flats Plant 
resulted in its closure and subsequent movement of some of its 
operations to other sites. The Kansas City Plant was a beneficiary of 
past mission reassignments, such as its current reservoir work and 
secure transport work. In addition, we also acknowledge that people 
frequently underestimate the challenges of transferred a skilled 
workforce to a different location. We intend to weigh these risks as we 
plan for continuing the transformation of the weapons complex.
    Mr. Skelton. Currently, the Kansas City Plant contracts with 
commercial firms for about 50 percent of the non-nuclear parts for our 
nation's nuclear weapons. Is outsourcing this large a part of our 
nuclear weapons production base strategically wise? How can we be 
assured of the pedigree of the firms and the parts if you expand the 
share of our nuclear weapons parts that are outsourced?
    Mr. D'Agostino. The degree of outsourcing is both strategically 
wise and economically essential. Most of the military technology that 
the Department of Defense acquires comes from the defense industrial 
base, as does a substantial amount of the equipment purchased by the 
National Aeronautics and Space Administration and other agencies with 
national security responsibilities, such as the Department of Homeland 
Security. In our vision of the future, we plan to procure non-nuclear 
components from commercial suppliers through a supply chain management 
center when this is technically and economically the best solution. We 
will make non-nuclear parts when this is the best choice for cost or 
security reasons. One of the key capabilities that have evolved at the 
Kansas City Plant is in this area of supply chain management, in 
addition to maintaining the in-house design and manufacturing 
capability for selected parts, components, and subsystems.
    Mr. Skelton. I understand that the contractors for NNSA's Pantex 
and Y-12 Plants both received 5-year contract extensions recently. In 
light of these decisions, can you explain why the Kansas City Plant 
contractor received only a 2-year extension?
    Mr. D'Agostino. The decision on the more limited contract extension 
was taken after a thorough review and extensive consideration. It was 
not a reflection on the performance of the managing and operating 
contractor, Honeywell Federal Manufacturing and Technology. We are 
addressing the changing requirements within the nuclear weapons 
program. We have been concerned about the costs of maintaining both 
aging facilities and larger facility footprints than we believe are 
currently required. Unlike the nuclear facilities, which are also 
undergoing significant footprint reduction involving large acreage and 
many buildings, the Kansas City Plant is located in a portion of one 
very large building--originally intended to produce military aircraft 
engines for World War II. We limited the extension to two years as part 
of a broader strategy to look at options to reduce the footprint in 
place, to identify an attractive local alternative, or to consider 
mission relocation. As the Congress is aware, the Department of Energy 
has been encouraged to look at the overall make-up of the nuclear 
weapons complex during this period and there was an Infrastructure Task 
Force of the Secretary of Energy's Advisory Board that performed a 
specific study in response to Congressional direction. This two-year 
extension also provides the National Nuclear Security Administration 
with management flexibility to respond appropriately to Secretary of 
Energy guidance stemming from the Task Force report and other 
considerations. It should also be noted that the Department of Energy 
retains the option to extend the contract further.
    Mr. Skelton. I understand part of your plan for consolidating the 
nuclear weapons complex includes creating a new non-nuclear production 
facility by 2012. What are the advantages of building a new facility 
over modifying the current KCP and how do you plan to finance this new 
facility?
    Mr. D'Agostino. The National Nuclear Security Administration is 
carefully considering options for non-nuclear production over the long-
term. We are considering the pros and cons of a new production 
facility--one that is modern, safer, appropriately secure, more energy 
efficient and environmentally sensitive, and right-sized for the known 
and projected workload. The current Kansas City Plant is old, has 
environmental issues, is bigger than our current needs require, does 
not have an optimal energy profile, is costly to operate and maintain, 
and would be expensive to refurbish. Current analyses indicate that a 
new non-nuclear production facility designed according to modern 
manufacturing principles would be more cost-effective to operate. A new 
facility, properly designed for the mission, would be easily 
reconfigurable to meet current and future production requirements, use 
modern open layouts to minimize barriers to product flow, and would 
incorporate technology-enabled business practices. The financing of 
either a major refurbishment or new facility is a challenge--one that 
will be addressed as part of our planning and budgeting.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. Can you give us your concept of what, depending on 
the answer for this study, what you think the opportunities are going 
forward on the pit facility and how that kind of goes into everything 
else?
    Mr. D'Agostino. An understanding of the changes in the mechanical 
properties of plutonium with age remains essential to our ability to 
design and certify a nuclear weapons stockpile that is sustainable for 
the long-term absent nuclear testing. Along these lines, the National 
Nuclear Security Administration (NNSA) has been working closely with 
the Department of Defense to understand plausible future stockpile 
compositions and sizes and their implications for required pit 
production capability and capacity. Specifically, stockpile scenarios 
have been evaluated with respect to weapon lifetimes, production rates, 
and transforming the stockpile by the 2030s to determine the component 
production capacity that best balances the trades between these 
parameters. These considerations led to our plan for pit production in 
the near-term at Los Alamos National Laboratory's (LANL) TA-55 facility 
and in the longer term, at a new consolidated plutonium center for pit 
production and plutonium research and development requiring significant 
plutonium quantities.
    The production capacity that can be established at TA-55 beginning 
in 2012--about 30-50 pits per year--is not sufficient to meet 
anticipated future needs. There are three reasons why we believe this 
to be true. First, our best estimate of minimum pit lifetime is 45-60 
years. That estimate is under review at our national laboratories and 
we anticipate that by the end of FY 2006, the NNSA will complete an 
extensive effort to provide system-specific pit lifetime estimates. 
Nonetheless, we must anticipate that, as the stockpile ages, we will 
need to replace substantial numbers of plutonium pits in stockpiled 
warheads. Second, even if pits were to live forever, we will require 
substantial production capacity in order to introduce, once feasibility 
is established, significant numbers of Reliable Replacement Warheads 
(RRW) into the stockpile by 2030. We should not assume that RRW could 
employ existing pits and still provide important efficiencies for 
stockpile and infrastructure transformation. Finally, at significantly 
smaller stockpile levels than today, we must anticipate that an adverse 
change in the geopolitical threat environment, or a technical problem 
with warheads in the operationally-deployed force, could require us to 
manufacture and deploy additional warheads on a relatively rapid 
timescale.
    All this argues for a production capacity that exceeds that planned 
for TA-55. For planning purposes, an annual production capacity of 
about 125 war reserve pits per year is about right. This capacity 
assumes nominal single shift production rates and provides a surge 
capacity with multiple shifts to support short-term unexpected threats.

                                  <all>

</pre></body></html>
